<html>
<title> - FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-119]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

          BUDGET REQUEST FROM THE DEPARTMENT OF THE AIR FORCE

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                  U.S. GOVERNMENT PRINTING OFFICE
45-253                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida

                    Erin C. Conaton, Staff Director
                 Andrew Hyde, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, February 27, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Air Force......................................................     1

Appendix:

Wednesday, February 27, 2008.....................................    41
                              ----------                              

                      WEDNESDAY, FEBRUARY 27, 2008
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                  FROM THE DEPARTMENT OF THE AIR FORCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Moseley, Gen. T. Michael, USAF, Chief of Staff, U.S. Air Force...     6
Wynne, Hon. Michael W., Secretary of the Air Force...............     4

                                APPENDIX

Prepared Statements:

    Wynne, Hon. Michael W., joint with Gen. T. Michael Moseley...    45

Documents Submitted for the Record:
    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Boyda...................................................    84
    Mr. Forbes...................................................    79
    Dr. Gingrey..................................................    84
    Mr. Hayes....................................................    79
    Mr. Kline....................................................    83
    Mr. Lamborn..................................................    85
    Mr. LoBiondo.................................................    82
    Mr. Miller...................................................    80

 
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                  FROM THE DEPARTMENT OF THE AIR FORCE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 27, 2008.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, welcome to our full 
committee hearing, which is on the fiscal year 2009 budget 
request from the Department of the Air Force. I am pleased to 
welcome back the secretary of the Air Force, Michael Wynne and 
the chief of staff of the Air Force, the Honorable Michael 
``Buzz'' Moseley.
    We thank you and all those that you lead for that wonderful 
job that you do. And that includes the total force, active 
duty, Guard, Reserve as well as your civilian employees. We are 
proud of what you do.
    The Air Force has been in some form of continuous combat 
since 1990 stressing its people, its equipment. In Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF), the 
Air Force has committed more than 250 aircraft to support 
combat operations and flew approximately 33,000 sorties last 
year alone in the Central Command area. This pace of operations 
and the aging of your aircraft inventory is taking a toll on 
the Air Force. I know we will hear about that.
    I am concerned about this heavy operational pace. This may 
not be sustainable, and it may not be safe. The ongoing 
investigation into the multiple F-15 crashes, those of last 
year and already several this year, underline the importance of 
this issue. For a time, the entire F-15 fleet was grounded.
    Just this weekend, the Air Force suffered the first ever 
crash of a B-2 bomber in Guam, which, as you know, is stationed 
at Whiteman Air Force Base in Missouri, a tremendous loss. I 
must note that my home state feels this very much as well as 
one of the F-15s that crashed was being flown by the Missouri 
National Guard, an F-15 that literally broke in half during 
flight.
    Even as the Air Force has been straining to keep up, it has 
been reducing end strength, sacrificing, in my opinion, its 
most valuable asset, its people. The budget request asks for 
end strength of 316,600 active duty airmen, a reduction of 
almost 13,000 just from last year's level, for a reduction of 
100 in the Air Force Reserve. Since 2005, the Air Force has 
reduced end strength by over 40,000, though your budget 
documents suggest that you intend to halt this slide in 2010.
    I can't help but conclude that a significant factor in the 
current strain on the Air Force is a lack of people. In fact, 
your unfunded priority list suggests as much, identifying a 
requirement for $385 million to add back almost 19,000 airmen, 
split between the active duty and the Reserve. Today, we need a 
definitive answer to the simple question, ``Does the Air Force 
need to reduce end strength in 2009, or begin to add its people 
back,'' very simple. Which answer helps us with a national 
military strategy? We intend for you to answer that.
    The Air Force's aircraft inventory is aging, as we all 
know, in part because modernization budgets have not been able 
to support purchases in high quantity for high-priced assets 
like the F-22, C-17, and the C-130. I note that you have shared 
with the committee an impressive list of over $19 billion of 
unfunded requirements, more than double that of any other 
service. At the same time, this budget punts on such critical 
national security questions as the future of the F-22 and C-17 
programs.
    Do you expect Congress to resolve the issues, or is there a 
compelling case for deferring or punting these questions to 
next year to a new Administration? Can we force the Air Force 
into budgeting for today to fulfill the national military 
strategy? My review of your budget and the full committee 
hearing we held on this topic last fall suggests that the 
answer is no.
    The Air Force is ground zero for another great debate that 
is starting to occur over the roles and missions of the armed 
forces that started, as you know, in 1947. There was an 
agreement in 1948 that was the Key West Agreement, amended in 
1953 and 1958, and a lot has changed, missions, technology, 
weapons systems, the design of the forces. All that has 
changed.
    And one of the roles and missions issues that you wanted us 
to solve was the joint cargo aircraft as well as who owns the 
Unmanned Aerial Vehicles (UAVs) in our bill last year. That is 
for the roles and missions issue that should be done within the 
Department of Defense (DOD).
    And in our bill this last year, we required that that be 
done. And I certainly hope that all of you at the highest level 
in the Department will take that seriously because we certainly 
do. And I might point out that we have a panel that is about to 
submit a report on that very issue.
    Now you have a sense that this year's budget request raises 
almost as many questions as it answers. And I hope the 
testimony today will help us answer those questions.
    Again, we thank you for your valued service. It is 
wonderful what you do, the challenges that you have. We want to 
hear. We are here to help you succeed. And sometimes our ideas 
go beyond yours, such as roles and missions, such as Goldwater-
Nichols and others. But that is what we are here for, and in 
our Constitution we are charged with it.
    Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And thanks for having 
this important hearing today.
    And I want to thank our witnesses, join you in thanking 
Secretary Wynne and General Moseley and all the great Americans 
whom they represent who represent us so very well.
    Gentlemen, last year when we came together for the posture 
hearing, I brought up the fact that every year we hold a 
hearing on your budget, and little, if any, progress is being 
made to recapitalize your force and improve your acquisition 
processes. And if you recall, last year I read a portion of my 
opening statement from the Air Force posture hearing that we 
held in 2006. And if you will bear with me, I would like to 
read that to you again.
    I said at that time, ``The DOD budget legacy is one of 
misprocurement opportunity. And this,'' as you point out in 
your statement, ``gives us the oldest fleet of aircraft in the 
history of the Air Force with the fleet having been engaged in 
or supporting some level of combat for the past 15 years. The 
aircraft fleet has been operating at utilization rates far 
beyond those that were planned for it.''
    ``The consequence of age and high operational tempo (op 
tempo) is reflected in reduced readiness rates. And it is to 
the Air Force's credit that professional fleet management has 
achieved the safety record that it has achieved.''
    Gentlemen, I believed that to be true when I said it in 
2006, and when I said it again last year. And despite the 
recent mishaps that we--I know we will talk about some today--I 
believe it is still true today as well.
    The cost to maintain your aircraft continues to increase, 
and your mission reliability rates continue to decrease. It is 
clear to me that many of your current readiness challenges are 
a result of misprocurement opportunities in the 1990's. Now, 
according to the Government Accountability Office (GAO), the 
Air Force identified the need for a fighter to replace its F-15 
fleet in 1981. And after more than two decades of technology 
development and prototyping, actual F-22 system development 
began in 2003.
    The F-22 was declared operationally capable in 2006. And 
that is 25 years from the time you identified the requirement 
until it was declared to have achieved initial operational 
capability.
    We can also look at the Joint Strike Fighter, which will 
replace the legacy F-16 fleet. It began concept development in 
1996 and is not forecast to be operationally capable until 
2013.
    So here is our problem. We can't develop and field the 
complex weapons systems demanded by today's global security 
environment in one budget cycle or even under one 
Administration. We can't pull an F-22 out of the hat if our 
planning factors and intelligence assessments prove wrong.
    I know it is another service, but I am reminded of the Mine 
Resistant Ambush Protected vehicle (MRAP), if we take that as 
an example. It is a simple design. It is an armored wheeled 
vehicle for moving troops. It wasn't a new design. It evolved 
out of an existing design from the 1970's. And yet even with 
full funding, multiple contractors, and designation as the 
Department of Defense's top priority, it has taken us over a 
year to field 4,700 of the 15,000 vehicles that are required.
    So what I am trying to say is that we are living with 
readiness challenges in the Air Force because we failed to 
adequately fund and develop airplanes in the 1990's. And the 
decisions we make today will impact the readiness and the 
capability of the Air Force in the next two decades.
    Gentlemen, it is clear that the budget in front of us does 
not meet your requirements. You sent this committee $18.3 
billion in unfunded requirements for fiscal year 2009.
    And, Secretary Wynne, you have said that you are 
approximately $20 billion short each year for the next five. At 
the top of your list of requirements that are not met by the 
2009 budget request is $183 million to maintain your B-52 fleet 
at levels necessary to meet national military strategy 
requirements.
    Next on the list is $1.1 billion for additional F-22s. Add 
to that $385 million to buy back some of the personnel cuts you 
were forced to take last year and $3.9 billion for C-17s. And 
we have got a pretty good bill adding up here.
    So, gentlemen, I understand how we got here, and I 
understand that we are not going to fix these problems 
overnight. What I need to know from you is what we can do to 
assist you in getting this right and bringing the much-needed 
modernization to the United States Air Force. Again, thank you 
for your expertise in making due with less over a fairly 
extended period of pretty stressful times for the United States 
Air Force.
    Mr. Chairman, I look forward to the testimony.
    The Chairman. Thank you, Mr. Hunter.
    Mr. Secretary.

 STATEMENT OF HON. MICHAEL W. WYNNE, SECRETARY OF THE AIR FORCE

    Secretary Wynne. Mr. Chairman, members of this committee, 
thank you for the opportunity to testify on behalf of America's 
Air Force. Thank you as well for your support to our improved 
readiness via retirement and recapitalization. We are working 
hard to see it through. We urge you to quickly pass the pending 
supplemental as it will help.
    Across the total force of active, Guard, Reserve, and 
civilian, we are America's strategic shield in air and in 
space, and in cyberspace. We are contributing to today's fight 
with increasing ordnance drops. And we stand watch at the 
missile fields.
    We stand ready in the nuclear field. And we are an 
effective air superiority and strike force to both deter and 
dissuade any opponent who may consider our forces to be 
stretched in the global war on terror (GWOT). We are gratified 
to hear that role reaffirmed by the chairman of the Joint 
Chiefs in a deliberate message to those who might seek to 
dissuade or deter us from our own options in the future.
    This is why we seek to move forward and not backward into 
fifth generation fighters, into new expeditionary tankers, and 
into long-range strike assets. It is why we seek to modernize 
space assets as the executive agent force base and not see 
further fragmentation of the management of this now vulnerable 
area. It is why we have established the Cyberspace Command and 
see this as a war-fighting domain in which we need to dominate 
to remain a net centered force for the future.
    Clearly, beyond the global war on terror, we must not lose 
America's asymmetric advantage in the strategic forces. Your 
Air Force has been in the fight for 17 years, as you noted and 
yet over the same 17 years has seen under-funded modernization. 
We thank you for initiatives to restore fleet management to the 
United States Air Force, a responsibility that we don't take 
lightly.
    When General Moseley and I came to our posts, we set about 
a strategy to restructure our Air Force, truly develop a lean 
and efficient Air Force in order to husband the resources for 
investment. We worry about the industrial base and the need to 
look after the open lines.
    I am pleased to report to you that the Department and the 
Air Force have indicated a desire to not close the F-22 line 
and to develop the long-range strike asset. It is to these that 
we would like to apply the saved resources over the near-term 
while the F-35 proves itself through rigorous tests and is 
effectively capped on production.
    We ask that you agree with an approach for the F-22 
aircraft while we work to restore our readiness with younger 
aircraft. The F-35 and the F-22, in fact, are complementary, in 
our judgment, with the F-22 bigger, faster, planned to fly 
higher, and can carry more air-to-air weapons internally. Also 
with less than 20 penetrating bombers in our current fleet, it 
is time to develop an alternative as well.
    We have talked about being under-funded, but here have 
worked to offer a balanced budget prioritized to best defend 
America. And we will continue to do that over the Future Years 
Defense Program (FYDP).
    The Air Force Research Laboratories is well-engaged in 
technology development, expanding the opportunity for energy 
alternatives while reducing our demand in our fleet and at our 
bases, also in unmanned flight, in propulsion, and material 
science as well as in human effectiveness.
    As regards space, at Kirkland Air Force Base, a branch of 
the Air Force Research Laboratories is creating inherently 
defensive space assets. In cyberspace, career development, 
including the Air Force Institute of Technology (AFIT), and 
also war-fighting schools are keys.
    Combatant commanders and agencies partner with us in this 
increasingly contested domain. I have worked in space for 
almost two decades and have worked in commercial and classified 
space as a supplier and a customer. We need consolidated 
leadership to maintain our current strategic advantage.
    Congress asked for a relook at responses to the space 
commission. And we should really consider what is in the 
report.
    The Air Force is undergoing a back to basics as well as 
back to blue complementary efforts to restore a steady demand 
and a knowledge base. I recommend we keep the executive agency 
where it is.
    I have engaged airmen in both theaters of operation. And 
the question to ask is, ``Are the continuation of our presence 
and the continuation of the ground force tasking referred to as 
in lieu of tasking?'' My answer is that they performed so well 
that our Army colleagues don't want to give them up. And they 
do perform well, many winning bronze and silver stars.
    Your Air Force is currently protecting the air sovereignty 
of these fledgling nations. And until their air force can do 
this, I would not be surprised to see our Air Force remain to 
do that mission.
    This is why we are reexamining our force structure, 
although we have prioritized right now recapitalization in the 
President's budget. I again thank you for the privilege of 
leading the best Air Force in the world. Our airmen every day 
earn the respect of our friends as well as our enemies. We 
worry for their quality of life as we seek efficiencies and as 
we implement joint basing. But we never worry about the sense 
of mission they bring to the task.
    I will not have the privilege to represent them in this 
setting for the force posture again. And I hope I have 
reflected their pride in service as I have felt myself. I am 
ready now to take your questions. Thank you, sir.
    [The joint prepared statement of Secretary Wynne and 
General Moseley can be found in the Appendix on page 45.]
    The Chairman. General Moseley, please.

  STATEMENT OF GEN. T. MICHAEL MOSELEY, USAF, CHIEF OF STAFF, 
                         U.S. AIR FORCE

    General Moseley. Chairman Skelton, Congressman Hunter, 
distinguished committee members, sir, in lieu of a verbal 
statement, if you would allow me to introduce a few great 
airmen that are out every day doing exactly what you expect us 
to do. And I would like to have them stand up when I introduce 
them.
    For the committee, the secretary and I truly appreciate 
your continued support for soldiers, sailors, Marines, Coast 
Guardsmen, and airmen. Today we are privileged to be able to 
have a discussion with you about your airmen. And thank you for 
that opportunity to talk about the posture of your Air Force 
and our vision for the future and strategy to achieve it.
    So, Mr. Chairman, if you would allow me to start with 
Lieutenant Colonel Bryan Turner. He is a Virginia Air National 
Guardsman who flies F-22s at Langley Air Force Base as part of 
the first Raptor classic association. He is a living symbol of 
the Air Force's ironclad commitment to total force integration, 
maximizing the strengths of the Guard, Reserve, and active 
components.
    He has logged over 3,600 flying hours in fighters to 
include F-16s A, B, C, and D, and the F-22, including 300 
combat hours in Desert Storm, Allied Force, and Iraqi Freedom. 
Additionally, one of his roles at Langley Air Force Base is 
flying Operation Noble Eagle sorties over the top of Washington 
and New York in support of air sovereignty and air defense 
missions.
    Let me introduce next Captain Kari Fleming. She is a C-17 
pilot from Charleston Air Force Base, South Carolina. She is a 
2003 graduate of the United States Air Force Academy, and 
Charleston is her first and only operational assignment.
    Still, she has amassed over 1,200 flying hours, including 
900 hours in the C-17, including 124 combat missions and 278 
combat hours since 2005, missions that have included 
aeromedical evacuation operational air drops. Just ask her how 
many times she has landed the big airplane in the dirt. She 
says many times, and it does okay.
    Next, Captain Scott Nichols. He is an HA-60G combat search 
and rescue pilot from Davis-Monthan Air Force Base, Arizona. 
Like Kari, Scott is an Air Force Academy graduate 1999. He is 
also a weapons school graduate, December 2005 graduate.
    Since May 2002, he has been deployed five times, three 
times to Kandahar, Afghanistan and two times to Balad Air Base 
in Iraq. He has logged over 2,000 total flying hours, including 
158 combat hours and 53 combat support hours. He has recovered 
special ops predators. He has recovered people.
    He has been a part of multiple saves. And for a fighter 
pilot, there is nothing like the sound of a jolly green in a 
combat rescue helicopter with a Pararescueman (PJ) on the end 
of the rope that will come get you. So Scott Nichols is that 
guy that comes to get you.
    Next is Tech Sergeant Jim Jochum. He is in the other 
business that we have got. He is an aerial gunner on a special 
operations AC-130 gunship out of Hurlburt Field in Florida. He 
joined the Air Force in August 1989 and had spent five years as 
a maintenance airman before he joined Air Force Special 
Operations.
    Since November 1995, he has logged over 4,300 flying hours, 
2,500 combat hours, 367 combat sorties in the AC-130, more than 
anyone else in Air Force Special Operations Command. Since 
October 2001 he has accrued 892 days deployed, about 3 years. 
He wears an air medal with 16 oak leaf clusters, 16 oak leaf 
clusters.
    Next, Tech Sergeant Michelle Rochelle. She is a lead 
operator for a joint team of cyber operations. She is under the 
tactical control of U.S. Strategic Command (STRATCOM) Joint 
Functional Component Command for Network Warfare. Thus, she has 
direct involvement in the global war on terror and supplying 
strategic intelligence to America's political and military 
leaders. She represents the vanguard of the forces we are 
organizing, training, and equipping to operate in cyberspace 
for the nation's combatant commanders.
    She is a reminder that we believe the cyber domain is 
critical, the nexus of cross-domain dominance in our war-
fighting domains. And Tech Sergeant Rochelle is at the leading 
edge of what this means to us as we look at options and 
opportunities inside cyberspace.
    Last is Tech Sergeant Michael Shropshire. He is currently 
acting operations (op) superintendent for the 12th Combat 
Training Squadron at Fort Irwin, California, which is our 
longstanding relationship between Nellis Air Force Base in Fort 
Irwin with the things that we do at Nellis and the things that 
the Army does at the National Training Center.
    He enlisted in July 1992 as a battlefield airman who spent 
his entire career associated with the United States Army. 
Multiple deployments, Joint Endeavor in Bosnia, Operational 
Iraqi Freedom. He wears a silver star and a bronze star. He won 
a silver star for individual heroic actions while surrounded, 
cut off, under a hail of enemy gunfire in the largest sand 
storm in four decades alongside his Army comrades.
    He coordinated close air support, 12 joint direct attack 
munitions, or JDAMs, on 10 Iraqi T-72 tanks while constantly 
switching from his radio handset to his rifle, individually 
engaging enemy soldiers at close range. He wears a bronze star 
for exceptional performance as a terminal air controller during 
the 3rd Infantry Division's push on Baghdad about this time of 
2003.
    So, Mr. Chairman and Congressman Hunter, thank you for the 
opportunity----
    [Applause.]
    General Moseley. Sirs and committee, thank you for the 
opportunity to take my verbal statement and be able to 
introduce to you six great airmen that are out there doing 
exactly what you expect us to do and making this look so easy 
that people sometimes think that it is easy. So, Mr. Chairman, 
Congressman Hunter, sir, we appreciate the time and look 
forward to your questions.
    [The joint prepared statement of General Moseley and 
Secretary Wynne can be found in the Appendix on page 45.]
    The Chairman. In a word, we as a committee and all the 
American people should be very proud of the young men and women 
that you just introduced. We thank you for your service and 
dedication, not just to the Air Force, but to America. You are 
the best, and we recognize that, and we appreciate you.
    Do you have further comments, General?
    General Moseley. No, sir.
    The Chairman. I will have one question before I call Mr. 
Hunter. Back in the days when I tried lawsuits, from time to 
time a witness would testify to a fact, and there would be a 
record, maybe of a deposition or a comment to another witness 
or something that the person testifying had written that 
contradicted the testimony in chief.
    Today there is something I don't understand because the 
testimony in chief before us based upon the request for 2009 
Air Force end strength calls for a reduction of 12,963, a 
reduction from 328,316. And yet in an official document which 
was sent to our committee at the behest of Mr. Hunter, called 
an unfunded requirement list, there is an unfunded requirement 
in personnel end strength for $385 million, which is an 
increase of 18,884 personnel.
    Now, if this were a jury trial back in Lafayette County, 
the question put to the witness would be which time, Mr. 
Witness, are you right or are you telling the truth? I won't 
ask such a crass question as that. But I must tell you I am 
disturbed by on the one hand your official end strength request 
is that of a reduction of 12,963 personnel, and the unfunded 
requirement list is an increase of 18,000 plus.
    I think those of us in this committee are entitled to an 
explanation, Mr. Secretary.
    Secretary Wynne. Thank you very much, Mr. Chairman. You 
know, when we committed to the plan of 40,000 reduction, which 
was translated to about 57,000 back in 2005, it was a plan 
given a scenario that did not have an increased ground forces 
and a scenario in which some of the missions that we are 
currently performing as in ground force tasking might be 
relieved and returned to us.
    As we proceeded in time, we have continued to say that to 
ourselves that as the ground forces have been increased--and 
they are trying to increase--that perhaps this would be the 
satisfaction of the plan that we had in place. At the same 
time, we found ourselves with an increased mission space due to 
the increase because of the requirement to provide logistics 
liaison officers as well as joint tactical air controllers to 
any additional brigade combat teams that would have been 
developed and deployed to the tune of about 1,000.
    We also have not been relieved of other missions that we 
had thought by this time we would be relieved of. There is 
faint hope that by the cycle completing itself in 2009 that 
these things, too, will come true. And so, an optimistic look 
said continue to husband your resources and apply it to 
investment in the 2009 timeframe. And the pessimists amongst us 
said this is not going to happen, it has not happened in three 
years. We should at least hedge our bet.
    And I think that is the conundrum that you see. So as to 
what time is true, I think the question has a certain validity 
to it.
    We had a fairly robust debate, and we finally elected that 
what we should do is in the program budget we should adhere to 
the plan, and then in the unfunded requirements list we should 
state our worries and our concerns and maybe if we could hedge 
our bet, we should hedge our bet. And, Chief, that is kind of, 
sir, what I see.
    The Chairman. You know, you can't have it both ways. Tell 
us what you want right now. Are you standing by your unfunded 
list that you sent us for an additional 18,884?
    Secretary Wynne. No, sir, I must stand by the 316,000. I 
will tell you that as a result of the----
    The Chairman. But you must stand by the cut?
    Secretary Wynne. Yes, sir.
    The Chairman. But on the unfunded requirements, you were 
telling the truth then, weren't you?
    Secretary Wynne. Yes, sir, that is a question of hedging 
your bet against an uncertain future.
    The Chairman. I kind of feel like Mark Twain. The more is 
explained to me, the more I don't understand it. What do you 
want this committee to do, Mr. Secretary?
    Secretary Wynne. I will tell you what our plan is, sir, and 
then you, of course, have to decide.
    The Chairman. No, wait a minute. Let me interrupt. Let me 
interrupt. Just simply what do you want this committee to do so 
we can get on? Because other folks want to ask questions as 
well. What do you want this committee to do?
    Secretary Wynne. Yes, sir. We really would prefer to hedge 
our bet at 330,000. We look like we can stop our decline at 
around 322 by not taking actions following June. And because we 
are already down below 330 right now.
    The Chairman. So you are telling us you are standing by the 
unfunded requirement that you sent this committee?
    Secretary Wynne. When you asked me a personal opinion to 
what I would like to do, I need to hedge our bet.
    The Chairman. I asked you a personal and professional 
opinion. Let us not hedge our bets. You are asking for us to 
pay attention and try to follow the unfunded requirement level?
    Secretary Wynne. Yes, sir. But as you know, I must support 
the president's budget as it was submitted. But, sir, you have 
asked a personal opinion, and you have gotten it.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Mr. Chairman, the last 
full committee hearing, we had we were so cut up with votes; a 
lot of our folks didn't get a chance to spend a lot of time 
with the secretary. So let me pass on this, and I will ask my 
questions at the end of the hearing.
    The Chairman. Thank you.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    The fiscal year 2009 budget includes $497 million for F-15 
depot maintenance to fix many of the planes that have 
experienced recent structural cracks. And I have been told that 
the fees should be closer to around $50 million total. And I am 
concerned because these are the planes that protect our skies 
here in the continental United States.
    What are the number, the total number of planes that 
require repair? And how did you come up with the figure of $497 
million? Was this your figure or a DOD figure? How did we get 
to that number?
    Secretary Wynne. I will take that on a little bit. And at 
the time, it was we had lost, I think, seven F-15s over the 
last nine months approximately. There is a concern about making 
sure that we have the proper maintenance activity and the 
proper depot overhaul to do this.
    There is a concern that we make sure that we have a ready, 
flyable airplane in that world. The DOD felt like we had excess 
money over in the F-22 long lead and shutdown costs. They 
perceived that we had a problem that they could fix by moving 
that money wholesalely into the F-15 depot repair line to 
essentially repair that airplane.
    We have worked to try to figure out what would be the cost. 
And, of course, most of the cost would not be depot repair. It 
probably would be in excess of maintenance and operations 
because you really have to do this in between flights. In other 
words, as airplane lands, you get out your inspection criteria 
and you make sure it is ready for the next flight.
    On the other hand, we have noted that some of the langerons 
have to be replaced. This is at least a depot special weapons 
and tactics (SWAT) team, if not a deep depot operation. And so, 
I would tell you that that is what the money was reserved for 
and where it came from and where it went.
    Mr. Ortiz. And I agree with the questions that the chairman 
was asking, you know. We want to know how we can help you. And 
I think this is why we are here.
    And I know sometimes, you know, there are differences 
between what the Secretary of Defense needs and what your 
service needs. But we really need to know.
    Now, I was amazed at your airman that you introduced has 
been deployed five times. Five times--that is too many. And now 
in some areas we see now your recommendation is to cut down. 
But other agencies, other services are increasing. And one of 
the problems that we have had is that if we increase the end 
strength--in your case, you are decreasing--we might not have 
the equipment to train them with.
    This is not the reason why you are cutting down. We don't 
have the equipment to train them. Sometimes we train them in 
Kuwait or someplace else before they go to Iraq or Afghanistan. 
But we really want to know. We want to help you. Now, going 
back to the $50 million, you think that is adequate to fix the 
planes so that they can continue to protect our Nation?
    Secretary Wynne. I would say, sir, that our current 
estimate is roughly that figure. I think the impact in 
operations and maintenance is as yet not well-defined. Although 
what we see is an absorption problem where we have to fill our 
pilots' time, make sure they are fit and ready. And we worry 
about making sure we have an adequate flight regime to make 
sure they continue their training.
    This could impact the operations and maintenance. But as 
far as depot operations, our sense is that that was probably 
adequate, $50 million.
    Mr. Ortiz. So you do feel confident that they are getting 
the right training, flight training? You have not cut down on 
the hours of flight training?
    Secretary Wynne. No, sir, one of the things that you might 
have seen is a reallocation as the fleet changes and as the 
fleet in the future is expected to be is you may see a 
difference in flight hours. But it is not per pilot. It is 
across the board, and it is a soup-to-nuts look. So I would 
have to defer to the chief. But I believe the adequacy of 
training is present.
    Chief.
    General Moseley. Congressman, last year because of the 
funding and affordability issues we did cut operations and 
maintenance (O&M) and flying hours. But we cut it too much. And 
the guidance back to the staff was to put the flying hours 
back.
    This year in this budget there is a lower number of flying 
hours, but that wraps up a fewer number of airplanes. It also 
wraps up a different way the training command is doing 
business. So there is not the requirement overall for those 
flying hours. But, sir, rest assured I watch this every day 
relative to the quality of training of our people that fly 
machines.
    Mr. Ortiz. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Everett, five minutes.
    Mr. Everett. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General Moseley, for your 
service to the country. I notice you have got five Global 
Hawks. You have 38 Predators, nine Reapers. And I congratulate 
you for that.
    I am a big believer of our unmanned aerial systems (UASs). 
And I also point out to my colleagues that the Predator was a 
congressional add, for those of you who may doubt the value of 
congressional adds. It is not a bridge to nowhere. It is a 
bridge to the future, as we are seeing our UAS systems. We are 
only beginning to understand everything they can do for us in 
the way of intelligence, surveillance, and reconnaissance (ISR) 
and other things.
    But my question is this. This committee as well as the 
Intelligence Committee has language that directs the Secretary 
of Defense to advise the appropriate committees on an annual 
basis during the phase-out of the U-2 that there will be no 
loss of ISR. And I would like for you, if you will, tell us 
where we are with the phase-out of the U-2 and how long we 
think it might be before there will be no loss of ISR by using 
the Global Hawk.
    Secretary Wynne. Well, what we have determined is that 
there are some real attributes in the U-2 system. There are 
users who really appreciate the stream of data coming from a U-
2. We are trying now to replicate that system because the U-2 
is constrained by pilot hours to a specific regime of flight.
    We are trying to replicate that system as best we can in 
the Global Hawk. It is probably aimed at the Global Hawk Block 
30 or Block 40. So that kind of timing--we had a lot of 
combatant commanders up on the net, not just you all, sir, to 
make sure that our ramp on, ramp off still offered the right 
kind of ISR. We are still investigating the specifics of that 
because it has to do with how soon can you get on contract for 
additional Global Hawks, how soon will the integration work 
out. And so, we are erring on the side of caution.
    General Moseley. That is, the Global Hawk has, sir, because 
you have watched this for years, is you can keep the U-2 up for 
11 or 12 hours max. You can keep the Global Hawk up for 24 to 
30 hours. So once you get the sensor suite right, you can 
almost double, if not triple the coverage over a combatant 
commander's area of responsibility (AOR).
    The key here, though, is to have the right sensors. And 
that has been the nub that we have been working with the 
commanders, like in Korea and in the Pacific, to make sure we 
have the right sensor suite aboard the Global Hawk that 
replaces the U-2. And until that happens, there is no desire to 
divest ourself of that final U-2 capability.
    Mr. Everett. Global Hawk will not have wet film, right?
    General Moseley. Sir, but it has got digital capability. I 
mean, the wet film and the wet film world requires a whole 
different set of processing and additional people and 
additional facilities and additional equipment.
    Mr. Everett. But we are using it today?
    General Moseley. Yes, sir. But we are also using the 
digital capability, not just off the Global Hawk, but the 
satellites as well as the Predators.
    Mr. Everett. Let me switch. I noticed on Transformational 
Communications Satellite (TSAT), for instance, that in the 
outyears that there is about a $4 billion cut on TSAT. And I 
was wondering how that will sync with the idea that we can't go 
forward with the Future Combat Systems (FCS), and as I 
understand it, unless we have got TSAT.
    Now, I am aware of the fact that we are putting up Wide 
Global SATCOM (WGS) and Advanced Extremely High Frequency 
(AEHF). And let me also put a question in there. Are we able to 
sync our terminals with the new AEHFs we are putting up and 
WGSs? But the overall question is how are we taking into 
account the fact that I am told we can't go forward really with 
future combat systems unless we have got TSAT.
    Secretary Wynne. Well, the issue is com on the move, is in 
a simple way to a disadvantaged user. And what the Army is 
faced with is they are going to have to concentrate their coms, 
if you will, at a different level in order to contact the AEHF. 
I would tell you that the cycle of user equipment is aligned in 
the outyears to the TSAT.
    We were faced with a direction to put in AEHF four. The 
right thing to do was to delay the TSAT to accommodate that. 
The terminals are easily transferred.
    Mr. Everett. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We will call on Mr. Taylor. Immediately after he asks his 
questions, we will break for the one vote that is pending on 
the House floor.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General. Gentlemen, through 
unofficial channels this committee was made aware of the need 
for first body armor, then up-armored Humvees, then Improvised 
Explosive Device (IED) detonator jammers, and then last, the 
need for MRAPs. In every instance the Department never came to 
us and said we need this. We heard either from the moms and 
dads of young people in the field or actually from the people 
in the field that people were dying needlessly.
    Mr. Secretary, in general you have a heck of a lot of 
aircraft in that theater. I very much appreciate the young lady 
flying out of Charleston. That is a long way there and back. It 
is a dangerous situation.
    You have 130's flying from Kuwait to Baghdad on what 
appears to be every 20 minutes or so. Are there threats to 
those aircraft that this committee has not yet been made aware 
of? And does your budget fund every possible protection to 
those aircraft?
    And what brings this to mind--I am sorry--I got to the 
chapter last night in Charlie Wilson's War where with the 
introduction of the Stinger, three Hind aircraft went down in 
the span of about five minutes. Up until then, that was the 
hunter. From that moment on, that aircraft became the hunted.
    I would sure hate to see our aircraft and our crews in a 
similar situation change that quickly because we weren't paying 
attention. And so, that is the analogy that I will use for the 
crews of our 130's, for the crews of our 17s and the other 
aircraft in theater. Are we taking all the necessary 
precautions----
    Secretary Wynne. Well, sir----
    Mr. Taylor [continuing]. Against threats that we know of 
and threats that might be out there from another country that 
might make their way to the hands of the Iraqi insurgents?
    Secretary Wynne. We are exceptionally concerned about the 
integrated air defense systems that are on the market. We have 
not seen anything in the theater that would concern us at this 
point that allows us that. But we are concerned about future 
engagements because we see the proliferation of, if you will, 
better integrated air defenses, which is a very high corollary 
to the introduction of the Stinger missile in Charlie Wilson's 
War.
    The fact is that that is one of the reasons that we have 
stipulated that we want to move forward into the next 
generation of long range strike and the next generation air 
superiority weapon. It is also for air defense on the ground.
    And I would say this, sir, that right now we think we have 
seen the right mix. For example, we got laser vision glasses 
because we found out that there were, frankly, rich kids in 
Iraq and Afghanistan that had the lasers that were focusing on 
our windshields, something I would have never thought of. Now 
the pilots have to essentially armor-up their eyes to prohibit 
that.
    But we are, in each case, jumping on it and trying to make 
sure that we have covered the contingencies. We also have 
people looking out the windows, if you will, for any kind of 
missile attack. And we have the missile warning systems.
    Right now we think we are adequately protected for the 
engagement we are in. But we are worried about the engagements 
that we are not in yet because they are armoring up.
    Mr. Taylor. As they fall off, is there anything on your 
unfunded requirement list that would respond to the possible 
needs of our war-fighters, either in Iraq or Afghanistan as far 
as a vulnerability to either aircraft, anti-craft missiles, or 
any other threat to those aircraft?
    Secretary Wynne. Chief.
    General Moseley. Congressman Taylor, I would tell you from 
a chief's perspective and from the perspective of the guy that 
commanded that operation out there for over two years, you are 
never satisfied. You are never satisfied that someone doesn't 
have an advantage, and you are always looking for some way to 
provide infrared countermeasures, radar countermeasures against 
lasers.
    On our unfunded requirements list we have a variety of 
things that we could not afford or that were affordability 
issues that cut across a wide number of things. But, sir, 
please rest assured that we don't leave a rock unturned that we 
can't figure out a way to defend the crew and the aircraft.
    Whether it is an old aircraft that we are operating out 
there--and you have seen some of those and you have flown on 
some of those--or whether it is a new aircraft off of a 
production line that we can embed that capability from the very 
beginning onto the system. So whether it is infrared or whether 
it is radar or whether it is laser, sir, we try very hard not 
to miss something.
    Mr. Taylor. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    The Chairman. Gentlemen, thank you very much. We will break 
briefly for the one vote and return and look forward to 
resuming the hearing.
    Secretary Wynne. Thank you, sir.
    The Chairman. Thank you.
    [Recess.]
    The Chairman. Will the witnesses please take the seats?
    According to my sheet, Mr. Bishop is next on the list.
    Mr. Bishop for five minutes.
    Mr. Bishop. Thank you, Mr. Chairman.
    And, Mr. Secretary, General, I appreciate you being here. I 
recognize fully that there are, you know, some things that is 
government that we can spend, some things that we should, some 
things we absolutely must----
    The Chairman. May I suggest you get a little closer to the 
microphone?
    Mr. Bishop. You can't hear that? Is this easier now? Can 
you hear that?
    The Chairman. Yes.
    Mr. Bishop. Do you want to hear this?
    General Moseley. You bet, sir.
    Secretary Wynne. You bet.
    Mr. Bishop. Okay, we will see in a couple of seconds 
whether you still do. Now, you are in the absolutely must spend 
category, and I appreciate that. The chairman was exactly 
correct when he said that we had been basically at war since 
the 1990's.
    But unfortunately we have also had a basic procurement 
holiday that same time that we were involved in all that, which 
has caused significant issues. And I recognize that the top 10 
items that you have called for are in the procurement category 
for aircraft.
    I also recognize that we have, in my opinion, taken air 
superiority for granted in this country. We have had it since 
the Korean War. We assume it is always there. And sometimes we 
don't understand the connection between the successful ground 
operations and the successful air operations and that they both 
have to work hand in hand for us to go along with that.
    So I would guess the easy question I have is simply first 
if for some reason, both miraculously and appropriately do 
significant increases in the Air Force budget, I am making the 
assumption that your request is procurement over personnel. But 
the question would be is there some kind of nexus between that. 
If, indeed, we could increase the procurement side of your 
budget, does that take the pressure for the personnel side of 
the budget?
    General Moseley. Congressman, that is a great question. The 
dilemma that we have been in with the holiday on delivering 
aircraft affect you in a variety of ways. By keeping the 
aircraft longer, the costs per flying hour goes up. The break 
rates go up, which means you need more maintenance, which means 
you need more crew chiefs, you need more flight line 
maintenance. So there is a direct tie between recapped, reset, 
modernized inventories and the numbers of people that you have 
working each aircraft.
    The difference in the C-5 and the C-17, for example, is a 
significant number of people. The difference in the F-15 and 
the F-22 is a significant number of people. So there is a--you 
are exactly right.
    Sir, this year in this budget we buy 93 aircraft. Fifty-two 
of those are UAVs. And so, you can see where we are trying to 
work our way through a variety of portfolios that include 
strategic lift, theater lift, the air superiority piece, et 
cetera and trying to balance that with manned and unmanned 
systems to fight today's fight, but also position ourselves for 
the potential threats 10 years from now or 15 years from now.
    So, sir, the reset and recapitalization piece is a big deal 
for us. And we are working that hard inside this budget. And as 
you have seen on the unfunded requirements list, if we had an 
additional dollar, those are the things that we would spend it 
on.
    Mr. Bishop. Okay. Thank you, General. I appreciate that.
    Secretary, could I just say in a very parochial issue? You 
know, recently there was a small dust-up that developed between 
one of the industries in my particular area and a decision made 
on a legal position by the Department of Defense. Your office 
used the legitimate procedures in the process, but the 
turnaround in the decision-making process was amazingly quick 
to actually kind of work this through and solve any potential 
problems in the future.
    I was amazed that government could work that quickly. So I 
would just like to thank you, your staff especially for what 
they were doing in a very parochial issue, which was 
significant still to me that you did it well. And you and your 
staff should be complimented for doing that.
    Mr. Chairman, I don't want to take that much time. I will 
yield back.
    The Chairman. Thank you very much.
    Ms. Tauscher, please.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Mr. Secretary, General, it is good to see you again. Thank 
you for bringing those great airmen with you. And 
congratulations on their work and all the people that you 
represent.
    As you know, I have Travis Air Force Base in my district. 
And my constituents and I couldn't be prouder of the men and 
women who contribute to the Nation's airlift needs. The debate 
about the C-5s and the C-17s is something that we have talked 
about before.
    We all understand, I think, that they are two very 
important platforms that have very similar missions but have 
different capabilities. And obviously the C-5 has a vintage 
problem, as we say, if you are over 55.
    Secretary Wynne, I am looking at, not only the unfunded 
requirements list, but what the President's budget has said. 
And I understand that the Secretary of Defense removed about 
$217 million from the budget submission that was going toward 
the production line shutdown of the C-17. So what we 
effectively have is Under Secretary Young saying that the work 
in the amp programs are national security important, so we have 
to keep that money in there. So the C-5 they are going to 
continue going off into the future getting remodeled and 
refurbished.
    There is no money to buy C-17s. I think that somehow the 
Administration has gotten onto the fact that the Congress will 
add C-17s if they don't ask for them. And that is a nasty 
little habit for the Administration to have gotten into because 
it doesn't provide us the kind of strategic lift that we need 
with any sense that we could actually buy them with a multi-
year procurement and get the savings that we should be getting.
    So we are buying them, but we are paying the most money we 
can for them. And I understand that we have been offered a deal 
by the contractor, kind of 15 for 12, which is a pretty good 
deal. But because we can't make a decision on multi-year 
procurement, we are not getting the best price for them.
    And so, I think we are in this trick bag here of trying to 
keep both feet on the accelerator keeping the C-5s going, not 
asking for C-17s, depending on the Congress to do it, but not 
getting the best price. And in the end, I don't think the 
American people are very well served. I don't think the Air 
Force is well-served. And our strategic lift needs are clearly 
not well-served.
    So I am looking for you to tell me, Secretary Wynne, what 
should we make of the 15 additional C-17s that are listed on 
your unfunded requirements list.
    Secretary Wynne. Well, first of all, the C-5 Acquisition 
Decision Memorandum (ADM) certified the program for the B 
aircraft. It did not certify the work for the A aircraft. 
However, the law on retiring C-5s has not been changed. So what 
we probably will do at this juncture is to go ahead and proceed 
with the C-5B program as the ADM has said.
    And by the way, I think that Lockheed stepped up to a 
pretty good contract arrangement on that. We will take the As, 
and we will sort through the As to try to figure out which ones 
we should amp, which brings it up to sort of international 
standards for flight. We will amp a variety of C-5As along the 
way.
    To your question on C-17s, one thing that we have not been 
successful on is, frankly, selling the fact that we are running 
the wheels off and the wings off of the airplane going in and 
out of theater.
    Ms. Tauscher. I am sold.
    Secretary Wynne. And so, we cannot seem to sustain a budget 
through the President's budget. I will tell you that again, to 
hedge against a future, as we mentioned before, we have added 
the 15 to the unfunded list because we see that the future may 
well see the Air Force continuing to supply logistics, 
continuing to supply aeromed, continuing to supply quite a few 
of the flight requirements in both theaters and strategically 
across the world.
    So that is where we are. And I can't offer you much else. 
You know the positive nature of our personal views.
    Ms. Tauscher. Well, I would like to engage the chairman 
briefly.
    Mr. Skelton, I think that, you know, this is where the 
rubber meets the road literally. We have a situation here where 
we are chasing our own tail. We are keeping C-5s online that we 
know that we can't--that we don't want to, but we have to 
because we have a critical mission for them to complete.
    We are not procuring C-17s through the President's budget 
and through the Pentagon because they can't afford them because 
money is going elsewhere. The Congress is stepping in. But even 
though the Congress is stepping in and buying, you know, a 
dozen a year pretty much, we are not getting the savings 
because we can't do multi-year procurements. So we are just 
chasing our tail around.
    And I think we need to look at strategic airlift. I know 
that we have tried to look at different studies, and we have 
had a number of different things. General Moseley and I have 
engaged in this conversation.
    But, you know, I think that we are not serving anyone well, 
certainly not the airmen and the great Americans that are 
flying on these planes that we are exhausting and overusing, 
nor the strategic needs of the American people for other 
contingencies by not making these decisions. It is about the 
money. The money is going other places. We understand that.
    But we in the Congress have the responsibility to say stop. 
And I think this is where we have to say stop because we cannot 
afford in the future to turn around and have airlift needs and 
the needs to bring--whether it is humanitarian aid in the 
United States or troops and other things to a fight and say, 
you know, back in 2007 and 2008 and 2009 we really should have 
said stop, and now we don't have the lift requirements that we 
need.
    So I hope, Mr. Chairman, that we will begin to really take 
this fight to the Administration and make some choices. And, 
you know, I am not suggesting it is another air frame that we 
start to cut away from, but this is an unsustainable situation 
for us.
    The Chairman. I thank the gentlelady. That is our 
constitutional duty. Thank you for your comments.
    Before I call on--it looks like Mr. Turner would be next--
General, as you know, we lost a B-2 in Guam just a few days 
ago, which was stationed in Whiteman Air Force Base in my home 
state of Missouri. And I received a call from Brigadier General 
Harencak telling me that both of the pilots will fly again, 
which, of course, is good news.
    And I also know that the whole matter of the crash is under 
investigation and comments need to be limited. But what can you 
tell us without invading the province of the investigators 
regarding the B-2 crash, please?
    General Moseley. Chairman, thanks for the opportunity. Sir, 
as you know, we have a safety investigation board that is now 
present at Andersen in Guam headed by general officer. And any 
comments that I would have would be inappropriate until we know 
what the safety investigation board finds.
    I will tell you that we have both our pilots back. We did 
have a spine or back compression on one. But I am told that 
that is okay and we are going to be able to return to flying 
status on both pilots. That is the first thing that a service 
chief and a secretary always asks when you get these calls in 
the middle of the night is how about the pilots and the crew. 
So that part is a 100 percent good news story.
    Sir, I am real hesitant to comment because I truly have not 
asked into the safety investigation board for any updates 
because I don't think that is appropriate for me. That would be 
interpreted as I am attempting to either accelerate or somehow 
shape that board. And I will resist that. So, sir, I apologize, 
but I don't have that information.
    The Chairman. No, you are giving the right answer. I think 
it is important that the pilots will again be on flight status. 
And we are, of course, very, very pleased about that as well. I 
know, their families and all at Whiteman and Missouri neighbors 
will feel very pleased that they are returning as such.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    And I want to thank both of you for your discussion today 
on the important issue of your end strength. And you can see 
that the struggle in this committee as we look to the budget 
request and then unfunded priorities request with respect to 
personnel. Over the past year we have heard several times as 
both the defense secretary and yourselves have come before this 
committee and indicated that your projected reductions probably 
could not or even should not be met as you look to the 
responsibilities of the Air Force.
    I noted also that in your unfunded priorities you also have 
an item for 1,800 civilians. And we certainly are aware that 
the Air Force as it has been trying to hit lower numbers has 
taken hits both in active duty and in also civilians.
    I have a concern about as we look to the issue of your 
acquisition programs. Your ability to have personnel resources 
certainly impacts the ability of those programs to be 
successful. Could you speak a moment about the impact on 
personnel reduction of the effective functioning of your 
acquisition programs?
    Secretary Wynne. Well, sir, one of the things that we are 
trying to do there is to make sure that we have resurrected--
for example, that during the procurement turndown we lost 
almost a third of our procurement professionals. And these 
people are not sort of walk out the door, hang around, and then 
walk back in the door. These are developed over many years.
    Part of it is the cost control group, infinite cost 
estimating team that was at Wright Patterson and was, frankly, 
premier throughout the world. We are now in the phase of going 
back to blue, but at the same time, we need residual expertise, 
and we need to make sure we appropriately replace and replenish 
our acquisition professionals. And we are on the road to do 
just that and try to satisfy that.
    Part of this is as a result of Secretary Gonssler's view 
that he was on contracts and making sure that we all took 
another look at our contract professionals. And that is one 
area that we are striving to replace.
    Mr. Turner. Also then in looking to the issue of Base 
Closure and Realignment Commission (BRAC), I am understanding 
is you have included almost $1.2 billion in the 2009 request. 
It is also the understanding that there has been a general 
reduction in BRAC 2005 for fiscal year 2008. Apparently the Air 
Force's reduction is somewhere around $235 million. Without the 
restoration of the 2008 funding, how will the Air Force 
complete the BRAC 2005 process, and how does it affect your 
timeline of September 2011?
    Secretary Wynne. I think it is going to have an effect on 
the completion, but maybe not the start. The law reads that you 
have to initiate the base realignment and closure action and 
have a viable, executable plan.
    The problem is is that when we lost some money in the 2007 
timeframe, we recognized that just to do the engineering job, 
the architectural engineering job, and make sure we did all of 
the, frankly, facilities, infrastructure correctly, you have to 
have a time lead for planning. That is what drove the 
reduction.
    I can tell you if we stay on plan now, we are fairly 
confident that we have stretched out the money. You will see 
some base realignment and closure in the 2012, 2013 timeframe. 
But I think we will be all right.
    Mr. Turner. It is my understanding that there has been a 
shift in the modernization program for the C-5As limiting it to 
Avionics Modernization Program (AMP), not a full modernization. 
And it is also my understanding that the Air Force is not 
looking currently for C-17s, additional. How is that going to 
affect our capability? And can you talk a moment about the C-
5A?
    Secretary Wynne. The C-5ADM that came down certified for 
the C-5B program to make sure that the C-5B program was worked 
and AMP'd. We are looking at the A models to determine which of 
the A models--and we are going to start with the best A model 
because we always have thought that we needed some of those. 
And we are going to try to bring those up to international 
standards, which is essentially the Avionics Modernization 
Program, or AMP.
    I think that is going to take us some time to plan for, but 
that is where the program is now. There is a law that prohibits 
retirement. And so, we cannot have a plan to retire these 
airplanes. We have, as you know, asked this committee, and this 
committee has been exceptionally responsive to that, allowing 
Air Force to manage.
    Mr. Turner. Thank you, Mr. Chairman.
    The Chairman. The gentleman from Georgia, Mr. Marshall for 
five minutes.
    Mr. Marshall. Thank you, Mr. Chairman.
    Thank you both for your service. You do a great job for us.
    And, Chief, I compliment you on your opening statement. 
Very well done.
    I have a number of questions that I could have, just a 
legion. I only have five minutes. I am going to try and be real 
quick about this. I would love to talk about Global Logistic 
Support Center (GLSC) and executive agency. And that is 
something that we need to continue to dialogue on. But I am 
going to focus on three specific issues, and I will ask three 
questions.
    And, Chief, I think they are going to be principally be 
directed to you. And hopefully you will be able to give us some 
good answers here on the record.
    First, C-5, C-17--I think everybody agrees, GAO certainly 
does, that the air mobility study given to us a year or so ago 
is faulty. And I know we are updating that. And I understand 
that the projected date to have the updated air mobility study 
is first quarter, 2009. And what I would like is maybe 
something for the record, not an answer right now: what would 
keep us--what would be inappropriate about us directing that 
that air mobility study, the updated air mobility study be 
given to us sooner than that?
    What are the hurdles in providing that to us? I think we 
need that in order to get to the inquiry that Ms. Tauscher 
mentioned, pretty important stuff. So I won't put that in the 
form of a question, I would just ask that for the record you 
would detail why it is going to take so long and how quickly 
could this effectively be done and should we direct it.
    Joint Cargo Aircraft (JCA)--I would like some comments 
about the Air Force's current view with regard to that 
platform, how the Air Force intends to participate. And I will 
just make an observation. No matter what the Air Force does as 
far as acquiring platforms is concerned, in this joint world, 
thinking about future taxpayer resources, it seems to me 
contractor maintenance, C-17-type approach to this is 
inappropriate, and that is the direction the Army seems to be 
headed in at the moment.
    And we need to be thinking about depot maintenance core 
loads, you know, those sorts of things, which in the long run 
will be better for the services, better for the taxpayer, 
better for our military. And we all know that. And I am afraid 
that with the separation between the Army and the Air Force 
that continues to exist--and if a different approach is taken 
by the Air Force where JCA is concerned and acquisition of the 
platform is concerned, somehow maintenance is going to get lost 
altogether. And I would like you to comment on that, if you 
could.
    And the final thing near and dear to my heart and yours, 
sir, is personnel management, reorganization and the large 
civilian centers. I think people are misinterpreting the BRAC 
language.
    I have already said this once before. BRAC commissioners 
clearly contemplated that on-site management, I think, under 
center commanders' control will continue to exist to meet the 
needs of those civilian centers. The Tinker tests--I mean, that 
is an utter failure. You know, they have had a hiring freeze. 
And so, you just don't have the statistics.
    And I have heard that there is a move afoot to start moving 
authorities from the center commanders, personnel perhaps, 
slots perhaps, but moving authorities, command direction, that 
sort of thing, to Tinker--pardon me, to San Antonio to Air 
Force personnel center. That makes no sense.
    We don't have a test. You move the command authority. You 
have moved a major part of the deal, major part of the 
management team. And so, I would like a comment on all three of 
those. Thank you for your service.
    General Moseley. Sir, the mobility capability study (MCS)--
please let us do take that for the record and see what 
obstacles there are to move that quickly. But back to 
Congresswoman Tauscher's comments about strat lift. From the 
previous MCS study, look what has happened to us as far as the 
change in the environment that we are operating in.
    [The information referred to was not available at the time 
of printing.]
    General Moseley. The Army is 100,000 people bigger. Brigade 
combat teams either represent force generation backfill or 
forward teams deployed in combat. So that piece has changed.
    The future combat systems (FCS) vehicle I am told now won't 
fit in a C-130. We have now also began to look at U.S. Africa 
Command (AFRICOM) as an operating medium, which will be 
humanitarian relief and be disaster relief and a requirement to 
move things around a huge continent. So when you think about 
what has changed from the MCS 2005 to now, the Army is much 
bigger.
    The vehicle that the Army and the Air Force is working on 
to support their future concept of operations now won't fit in 
a C-130. AFRICOM is now bigger. The C-5 question--we are now 
looking at wurping the Bs and the 2Cs and beginning to AMP the 
As to get as much capability as we can. The C-17 is being used 
like a C-130 in-theater to move up to 10,000 people a month.
    Mr. Marshall. I am going to interrupt and say that I expect 
we will see all that in the updated study--real quickly.
    General Moseley. I guess I would say that is the river we 
are swimming in when we look at another mobility capability 
study, that we have a different world now than we had then.
    Mr. Marshall. Well, and we are all hoping that the 
supplemental will produce some more C-17s right away.
    General Moseley. And, sir, the C-27--George Casey and I 
have spent a lot of time personally on this together. In fact, 
we have just signed a letter together that outlines how we will 
progress on this. And we are still committed, both of us, to 
the program and being able to field the program for a variety 
of reasons, to include international partnering, homeland 
security, et cetera.
    And, sir, you know where I am on the personnel management. 
I believe that we need to have elements of that work at the 
depots to be specifically competent with that particular 
challenge.
    The Chairman. Dr. Gingrey, five minutes?
    Dr. Gingrey. Secretary Wynne, Chief Moseley, thank you very 
much for being with us today. I don't have a lot of time, but I 
have got a lot of questions regarding the F-22A situation. So 
let me begin.
    In a nutshell, the situation is that the base budget for 
fiscal year 2009 contains no funds for line shutdown or for 
advanced procurement of the F-22. And there seems to be a 
discrepancy between where that will leave us in terms of the 
size of the F-22 fleet and where the Air Force and most 
independent experts believe that number should be. That will 
leave us at 183 and possibly 187 if, as Secretary Gates has 
indicated, there are four additional F-22s in the supplemental 
request.
    General Moseley, in your professional opinion as the senior 
uniformed leader of the Air Force, what is the Air Force's 
validated requirement of F-22A Raptors?
    General Moseley. Sir, as you know, I do support the budget. 
I do support the President's budget. And I am grateful that in 
that budget the termination language has been removed and the 
line will continue. So the numbers discussion will be given--
will be allowed to continue into the next Administration.
    And so, the balance of F-35 and F-22s and legacy airplanes 
is where we are working now. But if you are asking my personal 
opinion, with what we know right now, the number is still 381.
    Dr. Gingrey. Three hundred and eighty-one? Thank you. Thank 
you, Chief.
    Secretary Wynne, as the civilian leader of the Air Force, 
where do you put the requirement? Has anything happened to make 
that requirement change?
    Secretary Wynne. I am not a uniformed officer, and so I 
have to be very supportive of the President's budget. But I 
also am grateful that the secretary has allowed the program to 
not be closed and that it has allowed the debate to continue 
into next year, giving, I think, the military authorities the 
right to argue for continued extension.
    Where I come down is, frankly, I worry very much about how 
we are going to manage across this globe to make sure we have 
air superiority, which has been the predicate for victory ever 
since World War II. I also worry about the integrated air 
defense systems because the last time we had a balanced 
survivability between us and them, we lost 2,000 airplanes, one 
of which was my brother.
    Dr. Gingrey. Mr. Secretary, if you could give me that 
number, I would appreciate it, the number of F-22As that you 
think we need.
    Secretary Wynne. Sir, I have to tell you that, not being a 
professional airman, but being a Secretary of the Air Force, I 
am sort of stuck on that. I can only tell you that where Air 
Combat Command (ACC) currently is is the 381.
    Dr. Gingrey. Thank you. And I assume that requirement is 
based, among other things, on the fact that China and Russia 
are developing fifth generation Raptor-like technology, safety 
concerns pertaining to our F-15 fleet, and our Nation's desire, 
of course, as you just said, Mr. Secretary, to maintain air 
superiority. I assume that requirement is driven in part that 
over the last 10 years multiple independent studies and over 20 
Air Force studies have all recommended that the Air Force 
requires far, far more than 187 F-22 Raptors to do the job 
previously done, by the way, by 800 F-15A through Ds.
    With a fleet of 187 Raptors, after accounting for training, 
tests, and maintenance requirements, fewer than 110 of those F-
22s will be operational. Without a change in procurement plans, 
I believe this small number of F-22s will make it extremely 
difficult for the Air Force to provide air dominance to our 
combatant commanders for the next several decades. So let me 
ask both of you.
    First of all, Secretary Wynne, in your professional opinion 
as secretary and, General Moseley, as chief of staff of the Air 
Force, are 187 F-22 Raptors enough to carry out the Air Force's 
air dominance mission for the next 30 years without taking on 
substantial risk?
    Mr. Secretary.
    Secretary Wynne. Sir, I think it is the measure of risk 
that we are debating. And it is the measure of risk as to where 
the resources could go other than to this program. I believe 
that we need a little bit of presence. And I think the way that 
the 381 units are currently sited was to make sure that there 
was a robust squadron in each of the 10 AEFs. I have not seen 
anything that would dissuade from that aspiration.
    Dr. Gingrey. Chief Moseley.
    General Moseley. Congressman, we are grateful that the line 
has not been closed down in this budget. And we are grateful 
that Secretary Gates in the President's budget defers the 
decision on shutdown and numbers to the next Administration. So 
we have an opportunity within the Department to have these very 
discussions.
    The affordability of the program is--and the measure of 
risk--is the debate that we are going through now. With the 
affordability of the 183 plus four airplanes is the real 
question. So as I support the President's budget and I am 
grateful that the line is not shut down, this is an 
affordability issue, and this is a measure of risk issue.
    And so, I agree with air combat command on the bigger 
numbers. But, sir, the discussion will continue.
    Dr. Gingrey. Thank you.
    Thank you, Mr. Secretary.
    Thank you, Chief Moseley.
    The Chairman. Okay.
    Mr. Secretary, could you maybe pull the microphone just a 
little away from you?
    Secretary Wynne. Away from me?
    The Chairman. Yes, sir. There is some feedback.
    Secretary Wynne. Yes, sir.
    The Chairman. Ms. Bordallo?
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Wynne and General Moseley, thank you for your 
testimony this morning. I want to begin by expressing my relief 
that the two pilots involved in this weekend's crash of a B-2 
bomber at Andersen Air Force Base on Guam are in good 
condition. I wish the one pilot that was sent to Tripler Army 
Medical Center in Hawaii a speedy recovery from his injuries.
    The events of Saturday morning is a reminder to all of us 
that our men and women in uniform are constantly putting 
themselves in harm's way to protect our way of life. And for 
that sacrifice, we say thank you. I know that the Air Force has 
commenced a thorough investigation of the circumstances 
surrounding the crash, and I remain committed to working with 
you and this committee to ensure that all safety issues are 
appropriately addressed.
    And now for my question. During the DOD fiscal year 2009 
posture hearing earlier this month, I expressed concern about 
the 32 percent across the board cut in military construction 
for the Air Force in fiscal year 2009. The case in point, 
nearly $700 million has been identified and validated by the 
Air Force construction for Guam. The construction is related to 
the realignment of Air Force units from Osan, Korea and the 
development of a fighter town at Andersen Air Force Base. 
However, the fiscal year 2009 budget only contains $5.2 million 
in construction.
    The Air Force, I know, is willing to take strategic risks 
in its construction programs, reducing the construction budget 
by 20 percent over the next 15 years.
    Secretary Wynne, there are numerous instances where 
construction to support F-22s and C-17s and other related 
training devices are delivered well after the arrival of these 
aviation assets. For example, Elmendorf Air Force Base--two F-
22 squadrons will be ready to respond in September of 2008, but 
the construction to support these planes is not programmed to 
be completed until two years later.
    I may be from sunny, warm Guam, but having these F-22s sit 
on the runway in Alaska does not make the best sense. Is this 
approach, in your mind, in the best interest of the Air Force?
    Secretary Wynne. Well, Ms. Bordallo, thank you very much 
for that question. The construction of our budget across the 
board is balanced between actual military construction (MILCON) 
and the money required for base realignment and closure. In 
that regard, we have tried--we recognize that it has gone down, 
but it is balanced across the spectrum.
    We think we are taking the appropriate risk, given where 
the status of plans are for even the movement of consolidation 
from Korea and potentially where we are going on the F-22. All 
of these things are sort of in flux.
    And I would agree with Congresswoman Tauscher's comment 
that, boy, it would be good if we actually had the foresight to 
know where this conundrum would come down. We think we have a 
balanced program and that we have accepted the risk that we may 
not do things all right. But I think in this case we have got 
it, the MILCON, about right between MILCON basic and base 
realignment and closure.
    Ms. Bordallo. General Moseley, I have a question for you. I 
would like to follow up on some comments that you made at the 
October 24th hearing last year on the Air Force's strategic 
initiatives. During the hearing you stated that you and General 
Casey were in discussion about how to proceed with the 
procurement of C-27s or joint cargo aircraft programs.
    Can we assume that you and General Casey will continue to 
adhere to the--is it a memorandum of understanding--MOU that 
was signed on June 20th? And would the committee be able to see 
this MOU?
    General Moseley. Yes, ma'am. Please allow us. We will 
provide that for the record, the previous MOU. But, ma'am, also 
rest assured that General Casey and I are taking this program 
very seriously. And we have met several times, just the two of 
us, to talk about this and how to proceed on the original 
schedule with the original bed-down and how to work these 
issues that Congressman Marshall talks about about the 
differences in depot maintenance and contract logistic support 
and how to sustain a program like this over the long-term, 
which may, in fact, be a major capability with strategic 
partnering in foreign military sales.
    How would we do all of that in one package? And those are 
the discussions that we have been having.
    Ms. Bordallo. Thank you.
    Mr. Chairman, I am requesting that we see a copy of the 
MOU.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Thank you.
    Mr. Franks, five minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And I want to thank both of you and your entire entourage 
for being here. You know, I am always reminded that apart from 
those who wear the uniform, none of us could be sitting here. 
And you keep us safe, and we are very grateful to you and honor 
your service.
    You know, I have to apologize that I didn't get to hear all 
the testimony today. I think there is deliberate collusion 
among the chairmen of this body to make all their committees at 
exactly the same time. And there is nothing we can do about 
that.
    But I have read most of your testimony, General Moseley. 
And I wanted to tell you one of the things that is becoming 
very obvious to me--and some of the colleagues have already 
mentioned the valid concerns about tankers and fighters--is it 
just seems like there is a bigger issue here. And that is you 
have got unfunded requirements in fiscal year 2009 of at least 
$20 billion. Now, maybe that has already been articulated here 
today.
    And none of these are trivial items that make up that loss. 
And I think we owe it to the American people to provide you 
with the resources to field worldclass air, space, and 
cyberspace force. And with the defense budget representing less 
than four percent, slightly less than four percent of Gross 
Domestic Product (GDP) and slightly more when the supplementals 
are factored in, I guess I just ask both of you, in the long 
run, will defense spending at a minimum of four percent GDP be 
enough to satisfy and to fund all the things that you must do 
to modernize and maintain the Air Force.
    Secretary Wynne. Sir, I know that the debate is very robust 
over whether or not the base funding has been adequate over the 
years. I would say since we went into the procurement holiday, 
we built up quite a backlog of procurement actions to be done, 
hence, the growth in age of my fleet.
    We have stipulated, I think, that we would love to see an 
increase. You have heard that. You have seen it in the unfunded 
requirements.
    I know that the chairman of the Joint Chiefs has talked 
about the four percent being an appropriate and likely area and 
a good one for starting the debate. I think I come down on that 
same bank.
    Mr. Franks. General Moseley, do you have any----
    General Moseley. Congressman, I, too, believe that four 
percent is a reasonable departure point to have a discussion 
about the strategic imparities and about long-term capital 
reinvestment. Whether that is shipbuilding, whether that is 
aerospace, whether that is reset from Iraq and Afghanistan. But 
I think a four percent mark on the wall is a good place to 
start to have that discussion.
    Mr. Franks. Well, in your white paper and in your testimony 
you made reference to cross-domain dominance.
    And first of all, Mr. Chairman, with your permission and 
with the agreement with the rest of the committee, I would like 
to put that white paper into the record here and then ask 
General Moseley to just elaborate more on the subject.
    The Chairman. Without objection.
    [The information referred to was not available at the time 
of printing.]
    General Moseley. Congressman, thank you for that. The 
secretary also has a strategy paper that is outstanding. And I 
would offer that as a companion piece to the white paper.
    Mr. Franks. Mr. Chairman, without objection----
    The Chairman. Without objection.
    [The information referred to was not available at the time 
of printing.]
    General Moseley. Congressman, I believe in the future for 
the terms that we have used cross-domain dominance for an Air 
Force that is airspace and cyberspace. I believe those domains 
are inextricably linked as we operate through and from space 
and we operate through that domain that our senior 
noncommissioned officer (NCO) back here lives with every day. 
And that is cyberspace.
    I believe that is a domain that we don't well understand. 
And it is a domain that we have to better understand and better 
understand the impacts of operating through that or operations 
against us in that domain.
    Air is much easier to understand because we can touch it 
and see it. Space is a bit easier because you can see the 
satellite launch, and you can see the effect. Cyber is 
something different. And I believe that those domains represent 
operating mediums that we have to better understand and we have 
to better merge. Hence, the term cross-domain dominance. I 
believe that is something that the United States Air Force must 
be prepared to take on for the future and understand those 
things better.
    Mr. Franks. Secretary, Wynne, do you have any comments?
    Secretary Wynne. In a simple term to do Global Hawks, you 
need space. To do Global Hawks, you need cyber. I want to take 
a minute or seconds here to compliment the chairman, who asked 
us to please take a hard look at strategies.
    Sir, we have done that. That is the paperwork that 
Congressman Franks has asked for. But I will tell you on behalf 
of all of us, thank you for pushing us in that direction. And I 
think the committee will benefit from the output.
    Mr. Franks. Mr. Chairman, thank you. I just want to add my 
own perspective here. It occurs to me that given the challenges 
that are coming straight at America and certainly the Air 
Force, that for us to fail to have clear dominance in any one 
of those three categories, whether it be space, cyberspace or 
air is to jeopardize the other two.
    The Chairman. I thank the gentleman.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you, Secretary Wynne, General Moseley, and your 
guests particularly. I just wanted to follow up with a subject 
that sort of is becoming an annual back and forth with the 
Pentagon, which is the alternate engine dispute over joint 
strike fighter. Again, I just want to be clear. Your budget, 
again, does not include any funding for the alternate engine.
    Is that correct, Secretary?
    Secretary Wynne. Yes, in support of the President's budget, 
yes, sir, that is right.
    Mr. Courtney. And is it listed as an unfunded priority at 
all as well?
    Secretary Wynne. I don't believe it is because the business 
case cannot be made. I would say it this way, though, that the 
business case is about cost versus reliability. The reliability 
of the ongoing engine is pretty good. That having been said, 
and you might want to say to yourself, okay, but what can you 
do to increase the fleet reliability?
    Well, first you can have two airplanes. That increases 
fleet reliability. If you intend to have one airplane for eight 
partner countries and for three service components, then maybe 
you need to look at the business case a little bit differently. 
But right now, it cannot be made.
    Mr. Courtney. Because it seems that we have got an awful 
long list here of unfunded priorities that you have identified 
outside of the program budget that, you know, this is going to 
be a tough year obviously listening to the prior questions. I 
mean, this issue, though, it doesn't seem that you have even 
included it as an unfunded priority, which to me that is a 
little bit of a statement from the Air Force about whether or 
not this is something we can afford, given all the other hard 
choices we have to make.
    Secretary Wynne. We have put it up for the past several 
years and have always been turned down. And I think that has 
probably talked to us about the--effectively of the business 
case. We thought the business case would mature out. It has 
not.
    Mr. Courtney. Okay. Thank you. And I just appreciate you 
restating that for the record.
    General Moseley, Congresswoman Bordallo referred to the 
October hearing. Again, I want to thank you for clarifying the 
issue, which was going back and forth between the Senate and 
House on the issue of the joint cargo aircraft. I was a little 
confused by the question and answer that she just had with you.
    The conversations that you have had with General Casey, 
which you indicated resulted in a letter--is that letter a 
substitute of the prior memorandum of agreement?
    General Moseley. No, sir. The memorandum of agreement was 
between the Air Force and the Army on proceeding with a 
program. And that we will provide for the record.
    [The information referred to was not available at the time 
of printing.]
    General Moseley. The conversations that General Casey and I 
are having is how best to field the airplane and how best to 
get it into the squadrons as fast as we possibly can and then 
look at the issues of intra-theater lift and look at the 
motions of how to deliver capability across a theater and how 
best to incorporate that into the competencies of the Air 
Force, which is what we do for a living.
    Mr. Courtney. Okay. So that at least as of where we sit 
today there really has been no change to the memorandum of 
agreement that was executed between the two branches?
    General Moseley. Correct, correct. Which is a program 
decision, sir. It is to get on with buying flying machines and 
to be able to get the program through the legal issues and be 
able to get on contract to be able to have a competition and to 
be able to begin to deliver aircraft.
    Mr. Courtney. And so, the request that she made about 
submitting follow up, that is the letter, I believe that----
    General Moseley. That is right, sir. That is the 
memorandum.
    Mr. Courtney. And your intention is to submit that to the 
committee?
    General Moseley. Correct, sir.
    Mr. Courtney. Okay, appreciate that. And again, as far as 
the existing sort of schedule for JCAs in terms of their 
procurement and delivery, I mean, we are basically operating 
under the rules of the road of the memorandum of agreement.
    General Moseley. Correct.
    Mr. Courtney. Is that correct?
    General Moseley. Sir, we are operating under the rules of 
the agreed-to deliveries to try to get the airplanes to the 
squadrons in the schedule that we have agreed to originally.
    Mr. Courtney. All right. Thank you.
    I have no further questions, Mr. Chairman.
    Mr. Ortiz [presiding]. Mr. Jones.
    Mr. Jones. Thank you, Mr. Chairman.
    And, Secretary Wynne, General Moseley, I have great respect 
for both of you and, excuse me, delighted--let me repeat that. 
I have great respect for both you gentlemen and the service you 
have given this Nation. And thank you for being here today.
    Recently, in a North Carolina paper under the section 
nation and world--I know you can't see that--it says Air Force 
warns of delay and decline. You know that I have Seymour 
Johnson Air Force Base in my district. I have Camp Lejeune, 
Cherry Point, active duty as well as many, many retired 
military in my district.
    The success and the future of our services is important to 
many of those people as it is myself and many Americans who, 
like myself, never served. A couple points in this I want to 
read to you, and then I want to get to my one question.
    The subtitle says, ``Service leaders say aging aircraft 
must be replaced. Critics cite spiraling costs.'' I am going to 
quote Major General Paul Selva, the Air Force director of 
strategic planning. He said in an interview with Associated 
Press. And this is his quote.
    ``What we have done is put the requirements on the table. 
If we are going to do the missions you are going to ask us to 
do, it will require this kind of investment,'' says Major 
General Selva. The point is this. I have sat here for 14 years. 
I have tried to make as many hearings as I could. I try to 
listen very intently.
    Our Nation right now owes China $440 billion in debt. Many 
of your problems--I am not getting into the specifics of 
procurement and this and that as needs to be asked and has been 
asked by colleagues. But the point is this. At what point does 
the Air Force get to the point of no return?
    I am not talking about giving up and closing down the Air 
Force. But you get to a point of no return that you can't 
recover what you have lost because of having to make 
adjustments because of not having adequate budgeting.
    Where and when do we get to a point that there is no catch 
up, that China--primarily China--and these other countries have 
spent, invested while America is borrowing money from other 
governments to pay its bills, which in the book by Pat 
Buchanan, Day of Reckoning, his point is here. And then I am 
going to let you answer my question. A great nation that has to 
borrow money to pay its bills from other governments will not 
long be a great nation. And that statement will impact on our 
military.
    And after reading many articles and hearing testimonies 
from professionals and experts like yourself, my concern as a 
taxpayer of this Nation is when we get to a point that there is 
no catch up. Is that a possibility?
    Secretary Wynne. Well, sir, I would start this way. One of 
the definitions of freedom is having all the options to 
operate. America has enjoyed that freedom of operation anywhere 
in the world primarily due to the strategic strike capability 
of the United States Air Force as well as those hardworking 
diplomats in our State Department.
    I think, if you will, the first indication that we have 
passed the point of no return is when America's options get 
shaped by another nation. And that is not here yet. We believe 
right now we have the finest Air Force in the world. Somebody 
said it is the role of the Air Force to put a silver cloud 
anywhere in the world that we chose to.
    And another indication, therefore, is when we want to put a 
silver cloud anywhere in the world and we can't, that is 
another indication. I would tell you that is not where we are 
today. The only thing that General Moseley and I can say is 
that at some point in the future we have got to fund the 
defense at the right level and buy the defense that America 
deserves.
    Mr. Jones. General Moseley.
    General Moseley. Congressman, I would say simplistically 
that unless you buy ships, it is hard to field the combatant 
Navy. And unless you buy airplanes and satellites, it is hard 
to field a combatant Air Force. In the economic order of 
quantities of the new systems that we are attempting to 
acquire, both maritime and air, it takes us to smaller numbers, 
which takes the cost up, which then generates a set of 
questions about affordability.
    Sir, I would say in the 2009 budget that we are here to 
testify today our major programs are intact. The economic order 
of quantities are down, but the programs are intact. And so, we 
have the baseline from which to build for the new Air Force.
    And I will speak for the Navy and the Army and the Marine 
Corps also with their new systems, whether they are B-22s or 
anything else. The programs are there. The economic order of 
quantities are not there.
    We are buying at lower levels. So this is about an 
affordability question, which, I think, is a different answer 
to your question. But unless you buy airplanes and satellites, 
it is hard to field an Air Force.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman [presiding]. Ms. Davis, please.
    Mrs. Davis of California. Thank you.
    Thank you very much. And thank you, certainly, for being 
here and for your service as well.
    I wanted to follow up a little bit on Chairman Skelton's 
question. And it is also a follow up in many ways to our 
personnel hearing the other day because one of the concerns is 
whether or not we are being realistic in the way that we are 
shifting over in our requests on the supplemental versus the 
base budget. And, certainly, in personnel, I think that issue 
was raised earlier.
    How do you expect to sustain the increase in our end 
strength, your end strength really, if Congress was to increase 
the end strength for fiscal year 2009? How would that occur?
    Secretary Wynne. Well, how would we recover to that level? 
We have no problem right now with recruiting. Our standards are 
at the highest levels. And some in our Air Force have said we 
have actually let go all the C students. We now only have B or 
better and because we have been coming down on a fairly 
dramatic way.
    We have actually people that are trying not to get out of 
our Air Force, even though we have asked them to leave. It is 
one of those things, I think, that General Moseley and I did 
not come to this decision lightly. It was strictly a matter of 
if you want to have an Air Force, you have got to buy airplanes 
and you have got to buy satellites. But I don't think we will 
have a problem, ma'am, recovering.
    Mrs. Davis of California. Would you say the same thing 
about the mid-career retention rate? I understand that you are 
struggling with those.
    Secretary Wynne. We are struggling with those just a little 
bit. I think it has more to do with the fact that we have been 
on a structural decline and they are wondering about the 
future. I think when the future is actually settled, that also 
will be settled.
    General Moseley. But, Congresswoman Davis, the mid-level 
NCOs that we worry about in that 6 to 10 and 10 to 14-year 
group in there--we are targeting those specific Air Force 
Specialty Codes (AFSCs) with bonuses to incentivize people to 
stay. When you look at the overall end strength, though, the 
decision on trying to level out the end strength, which 
hopefully you guys had a good discussion in the Personnel 
Committee hearing--is an attempt to relieve the stress on our 
families, attempt to relieve the stress on our people while 
still meeting the tasking that we have.
    The in-lieu-of tasking we have over 20,000 people tied up 
in that on any given day. The Army growth and the Marine growth 
takes us to higher numbers of our folks that live inside the 
Army like our member sitting behind me here. The new missions 
that we are looking at with cyber and with the joint task force 
and with the joint commands takes us to a place where perhaps 
that number of 316,000 is truly too small.
    And so, our discussion now is can we level this off at 
somewhere around 322 to 328 so that we can relieve the stress 
on those mid-level NCOs, our families and still meet this 
mission task. And so, that is the discussion we are having 
internal to the Department.
    And the Secretary of Defense's staff has been most 
receptive to us having this discussion to say what does it look 
like if we level off, what is the resourcing required, and 
where do the people go. And so, ma'am, we are in that swirl 
right now having that very discussion.
    Mrs. Davis of California. Have you been restrained in any 
way in providing those bonuses? Do you feel that by trying to--
--
    General Moseley. No, no, ma'am, not at all, no, no.
    Mrs. Davis of California [continuing]. Shoehorn that in in 
some way?
    General Moseley. But you want to be able to target the 
bonus at the right member, though, under the right 
circumstances so that it has the impact of actually being an 
incentive to stay.
    Mrs. Davis of California. You know, earlier you said 
something to the effect--I think Chief said that we would be 
deferring the discussion. And you were talking about airlift, I 
think, at that time--to the next Administration. And in some 
ways it feels as if--and I think the discussion that we had in 
personnel as well is that is the issue that by 2010 we might be 
bringing that supplemental into the base budget when we are 
talking about personnel issues, especially when we are talking 
about bonuses and retention.
    And that suggests to me that we are hoping to have more 
realistic budgets in the future. Is that a fair assessment to 
what is happening now?
    General Moseley. Ma'am, I think every one of these issues 
that we are talking about today comes down to an affordability 
issue and a prioritization. Our unfunded requirements list is 
big because we agreed that we would put everything on the table 
so that there would be complete visibility over everything, 
that where would the next dollar go or the next dollar go after 
that.
    So this is really about prioritizing within the baseline 
budget and trying to make the hard choices without breaking our 
people and our families and without breaking the mission and 
still looking to reset and recapitalize.
    Mrs. Davis of California. Thank you.
    The Chairman. Along that line, at what point do you say we 
can't do it?
    General Moseley. Mr. Chairman, we are not there yet. I 
won't say we can't do it, but I will tell you that I am more 
concerned that 316,000 may be too small. And that discussion 
about where can we plateau out and where can we look at not 
putting stress on our families or our members or on those key 
Utilization Review (UR) groups or on those key Family Support 
Centers (FSCs) and how do we mitigate the high-demand, low-
density pieces of the Air Force while we are still doing the 
other things outside the normal AFSCs and competencies. That is 
the nature of the discussion right now.
    The Chairman. You were kind enough to introduce the young 
men and young women behind you. They are not just the best 
Americans. They are the best in the world.
    And they deserve the best that Congress can give them. And 
that is why a hearing such as this is so important. And that is 
why the discussion of the unfunded list, the unfunded 
requirements list is extremely important to us. And we thank 
you for your candor.
    Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman. And I certainly agree 
wholeheartedly with your remarks about the men and women in 
blue. Thank you all for keeping the air in airborne and your 
service.
    We have talked about a whole host of things, and we need to 
keep stressing we need more airplanes, we need more platforms.
    Secretary Wynne, you talk about the silver cloud 
everywhere. But unfortunately we have got another kind of cloud 
that is kind of lingering out there with our acquisition 
process.
    On the issue of tankers, F-15s, F-22s, we need more. We 
also need more helicopters. So my question is about the Combat 
Search and Rescue (CSAR) program. We had the Inspector General 
(IG) announce on Friday that he was going to do an 
investigation. Would you use a little bit of our time to tell 
us where we are? Are we about to clear up that issue on the 
acquisition of the search and rescue helicopter?
    And, of course, General Moseley, I would appreciate any 
comments you might have. Just update us where we are on that.
    Secretary Wynne. Yes, sir. We are right now to the point 
where we are trying to satisfy all the critics. And we have got 
all of the data in, and we are now in an open and transparent 
way trying to make sure that we do not leave a critic 
unsatisfied.
    If the DOD inspector general would like to investigate, we 
are open and transparent. Come on in, let us reprove why we are 
doing what we are doing. I think they will be satisfied.
    Frankly, one of the things that I think we have not done 
well in the past is not being open and communicative to the 
critics. And by the way, some of those critics are, in fact, 
the supplier network, especially pre and post the award.
    And so, I would tell you that where we are going with 
transparency and governance should effectively help us by 
rationalizing our choices and our decisions and with the 
critics that are out there. We think the program is in great 
shape, frankly. And we think that by mid to late summer we 
should be in a conclusive state on that.
    Mr. Hayes. So are you going to wait on his report for the 
next move? Or what is the plan there? And he seems to be 
questioning documentation specifically on the key program 
parameters.
    Secretary Wynne. And I think we can satisfy the DOD IG, who 
took a listing from a program on government oversight, you 
know. I believe we can sustain our rationale and logic. And so, 
I invite him in. Become part of the team and support it. I 
would rather have that than I would rather have it be after the 
fact telling us that we didn't do something right.
    General Moseley. Congressman Hayes, if I could parallel 
that, though, on the operational side. I still believe, and you 
have heard me say this repeatedly, that I believe it is a moral 
and an ethical imperative that we go pick people up in a combat 
situation. So combat search and rescue to me, having commanded 
that theater out there on the air side, is a big deal.
    The helicopter that our combat and search and rescue pilot 
here flies doesn't have the characteristics to operate at those 
pressure altitudes or the range or the pay load. And so, that 
is why we have been pretty aggressive on trying to field a 
helicopter that does combat search and rescue for the entire 
joint team, regardless of who the airmen or the air crew, the 
Marine, the sailor, the soldier that requires to be picked up.
    That is what we do, and we do that for all of the uniformed 
military. And so, this is a big deal for us to be able to field 
this system, to put this young man in an airplane that has got 
the capability to survive in the world of tomorrow and be able 
to do this for the entire joint team.
    Mr. Hayes. And would you comment on the documentation 
issue? Do you think that has been satisfied going forward?
    General Moseley. Congressman Hayes, I don't know. I am not 
in the acquisition business, so I don't know. I can only trust 
our acquisition folks and say I don't think there is a rock 
unturned or a leaf unturned that we won't turn over to anybody 
and let them look because I trust them.
    Mr. Hayes. You have got technical issues, and you have got 
actual issues. The technical issue is the documentation. And it 
is about whether the requirement for flight-ready or mission-
ready. So that is one issue.
    And then you have got the other issue of--and you and I 
talk on the same page. You have got to have the high-altitude 
capability. All the aircraft that were submitted or all the 
rotorcraft were certainly very capable. You have got high 
altitude, but you have also got a much larger radar signature 
and a slower.
    And I am not saying anything other than these complex 
issues are somewhat difficult to document, so people not 
familiar with the terms are able to do that. So anything you 
can do to clear that up so that we can get more platforms?
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. We have three votes. Let 
us do our best to get the remaining folks to ask questions, Mr. 
Sestak, Dr. Snyder, Mr. Johnson in that order. And we will 
proceed as quickly as possible.
    Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    Mr. Secretary, I will be real quick and try to ask three 
questions, if I could. The $450 million or so that was there 
for the F-22 shutdown that you said was needed for fixing the 
langerons on the F-18 C and Ds and all--that only needed $50 
million. What happened to the other 400?
    Secretary Wynne. I believe it still sits there in that 
designated account, sir.
    Mr. Sestak. It didn't come across over here that way. There 
is nothing in that line right now for shutdown.
    Secretary Wynne. No, I mean it is still sitting in the F-15 
depot.
    Mr. Sestak. Okay. Were you able to sit back and do an 
assessment--SLEP, service life extension program whatever some 
of these F-15 Cs and Ds since we put the money over there and 
it only cost--langerons $11,000 or something to fix?
    Secretary Wynne. Our intention is to save about 177 F-15Cs.
    Mr. Sestak. Yes, sir, but I mean have we looked at now 
service life extension like you do with the F-16s. Do we want 
to look at that for the F-15s? Because we may not be able. We 
may shut down the F-22 line. Does it look at how much it costs 
and the operational efficiency of extending the life? I think 
you have taken the F-16s from 5,000 to 8,000 hours.
    Secretary Wynne. We are already demanding the F-15 live 
through 2025.
    Mr. Sestak. Have we looked at it, Mr. Secretary?
    Secretary Wynne. We have decided that we are going to fund 
the F-35 program to the max extent possible.
    Mr. Sestak. But, Mr. Secretary, have we looked at it, made 
an assessment of it, a study?
    Secretary Wynne. No, sir, I don't think we have.
    Mr. Sestak. I just didn't know whether the cost efficiency 
and operational effectiveness, if we studied it, may be worth 
it. My second question has to do with the number of F-22s, 
which I think I understand why we would probably want to have 
so many. Headquarters Air Expeditionary Forces (HAEF) then 
would have 24 per squadron. It works out very well.
    My question is, General, we are doing this at a time where 
we have the tanker, the bomber, the CSAR. Two-thirds of our 
space assets need to be replaced as they go over the next 
decade. My question is what can't we do if we don't get the F-
22. Because everybody doesn't have the T-50 or, you know, the 
29 or the double digit surface-to-air missiles (SAMs), China, 
maybe Russia. What can't we do if we don't get enough of those?
    General Moseley. Sir, let me go back to your F-15 question. 
We have our fleet viability board looking at the F-15 inventory 
to see how we do best to keep the 177 around, which is not a 
true SLEP program. But it is, I think, what you are asking.
    Mr. Sestak. Yes, sir.
    General Moseley. So we have asked that question.
    Mr. Sestak. Yes, sir.
    General Moseley. I would offer to you that in the world 
that we live in now the availability of fifth generation 
surface-to-air missiles----
    Mr. Sestak. Yes, sir, but we don't have those everywhere, 
just China and Russia. What can't we do?
    General Moseley. But, sir, the market is available. It is 
only a matter of money to buy those. You don't have a fight a 
nation state to fight those systems.
    Mr. Sestak. All right.
    General Moseley. And so, the proliferation and exporting of 
fourth plus generation fighters plus radars, target-tracking 
radars, early-warning radars, and surface-to-air missiles----
    Mr. Sestak. So they could proliferate in Iran or----
    General Moseley [continuing]. Are proliferating at 
extremely high rates.
    Mr. Sestak. Yes, sir. Could I ask another question? Your 
$20 billion gap--that is a number they can catch and start 
taking traction. Just to make sure I understand your baseline 
for determining that, you took the fiscal year 2013 program, 
fiscal year 2013 for every war and straight lined it out. 
Correct?
    General Moseley. [OFF MIKE]
    Mr. Sestak. And then in that when I went through it you 
didn't go up or down to figure the Joint Strike Fighter (JSF) 
comes off at a certain time, some ads come out. You took a 
straight line.
    General Moseley. Yes, sir, we----
    Mr. Sestak. And then you said this is what we desire as far 
as--you even included in there the A-10, the operational 
response satellite, things that aren't even in the program yet. 
Is that correct?
    General Moseley. Sir, we took an average. The average is 
$20 billion. In the early years it is 16 or 17, which is the 
unfunded list we presented last year. And this year it is 
consistent with that same number.
    In the outer years it goes above $20 billion. But we just--
--
    Mr. Sestak. Yes, sir, but, I mean, those are the baselines, 
correct?
    General Moseley. Just a----
    Mr. Sestak. The fiscal year 2013, straight lined out, 
regardless if programs stop or come in the plan? And up here it 
is what we desire as a service.
    General Moseley. But, of course, sir, you know we don't 
know what we don't know until we get there. So you would have 
to plan----
    Mr. Sestak. Should we have worked this through on the joint 
to see, well, wait a minute, this is what the Air Force wants? 
But is that what the joint staff, the joint warfare, when you 
say what the Navy can do, the Marines can do and all that?
    General Moseley. Sir, I would offer we have done that. We 
have done that based on the----
    Mr. Sestak. On the $20 billion?
    General Moseley [continuing]. Combatant commanders' 
requirements, on the national military strategy, on our ability 
to partner with carrier battle groups. We have done that.
    Mr. Sestak. One last question, General. And this is on 
personnel because it is very important. I noticed in some of 
the information that these great airmen and women sitting 
here--the operational and maintenance costs for them per airman 
is about $160,000 in 2008 dollars. The other services are only 
$100,000 to $110,000. Why is there that difference? I know they 
are better than the other services, you are going to say.
    General Moseley. Sir, I wouldn't say that. I might believe 
that, but I wouldn't say that. I would offer that every single 
one----
    The Chairman. Answer it quickly, then Dr. Snyder.
    General Moseley. Every single one of our airmen goes 
through basic military training and through a tech school. And 
we hold them at very high standards for competencies in schools 
all the way through. So a part of that is because the 
investment we make in training and schools is a bit higher than 
the others.
    The Chairman. Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Secretary Wynne, I appreciated your comments at the very 
beginning of the hearing in response to Mr. Skelton that your 
personal opinion was that you needed to go with a higher 
personnel number. This is consistent with other things that 
have happened so far in the budget process.
    When Secretary Gates testified a couple of weeks ago, Mr. 
Spratt, the brightest mind in the Congress on budget issues, 
pointed out that the President's budget over the next several 
years is actually a decrease each year in the real dollars for 
the defense budget, which will be unsustainable. I mean, if we 
are increasing numbers in the Army, Marine Corps--you all want 
to increase--and then we are projecting a decrease in dollars. 
That is not going to work. And we all know that is not going to 
work.
    Mrs. Davis referred to the Personnel Committee hearing we 
had yesterday in which the Army, you know, in response to when 
are you going to put in your regular baseline budget your 
increasing personnel needs. And they said we are aiming for 
fiscal year 2010.
    Well, what is happening--all these things are pushing this, 
in my opinion--I don't expect you to comment on this--pushing 
it into the next Administration, the next presidency. All these 
decisions are being kicked down the road.
    You know, we are all going to have to account for why is 
this deficit looking so big. Well, it is because the previous 
Administration, you know, gamed this thing in a way that is not 
helpful to our national fest nor helpful to transparency.
    I appreciate your unfunded requirements list here. I wish 
it had been titled request for earmarks because that is what it 
is. It is a request for earmarks in which in your letter you 
very specifically say our unfunded list is a reflection of the 
delta between where we are and where we need to be. And we will 
do some of these things, both in this committee and in the 
appropriations process.
    And I hope when our President goes on the radio show and 
press conferences saying I am drawing a line stop these 
earmarks that you will step forward and say we requested those 
earmarks. Those earmarks are part of what we think is necessary 
for the national security of this country. Because that is the 
game that is going to be played this year.
    I wanted to ask specifically in you all's statement, page 
16 you state our MILCON plan supports these priorities by 
focusing on new mission bed-downs, training, and depot 
transformation as well as dormitory and childcare center 
upgrades, childcare center upgrades. It came out yesterday. I 
attended the ribbon-cutting for a new childcare center at 
Little Rock Air Force Base, wonderful facility, great toys. I 
got to play with little trucks.
    The capacity now at the air base will be for 335 children. 
They are being able to service 237. Why? Because there is not 
staffing. The caps on personnel means we have spent $4.2 
million. I assume this is going to other places in the Air 
Force. Four-point-two million dollars for a new childcare 
center, but because of the reductions in force, it will be 
unstaffed, even though we have 100 kids on the waiting list and 
this childcare center could handle it.
    I don't know who wants to respond to that. That is a huge 
problem for our personnel. How is that going to get resolved?
    Secretary Wynne. Well, sir, in fact, we are reexamining the 
quality of life across our Air Force to make sure that we find 
little pockets like that that we can actually restore. And I 
think that is one that we are really looking hard at to find a 
way to restore that.
    Dr. Snyder. My concern is----
    Secretary Wynne. We are being inundated in other places, by 
the way, by our other colleagues in service coming and using 
our facilities. But in the case of Little Rock, it seems to be 
us on us.
    Dr. Snyder. Well, I don't want a Little Rock fix. I want a 
system-wide fix.
    Secretary Wynne. No, no, I understand. Right.
    Dr. Snyder. I mean, you have got kids that----
    Secretary Wynne. We are looking across.
    Dr. Snyder. We build a new facility, and we don't have 
staffing for it. That is very, very poor management.
    My final question, General Moseley, is this issue of old 
aircraft. In the defense bill that was just recently signed we 
did put some language in there trying to give you some relief 
on the old E model C-130's. It is not at all what I would have 
liked. It is not what you would have liked. You mention that on 
page 23 of your statement about old aircraft. I hope you all 
will keep pushing on this.
    The House, I think, got the gospel this time. It was the 
Senate that resisted the changes we need. I hope you will keep 
pushing on that issue so that you can have the flexibility to 
stop wasting money on old aircraft. Do you have any comment on 
that issue?
    General Moseley. No, sir, we just are very appreciative of 
the Congress to provide us more and more flexibility to manage 
our own inventory and to be able to do the things that you have 
just described. The E models have been wonderful airplanes over 
the last 20 or 30 years, but it is time to move to something 
different, more reliable, more effective with the survivability 
and the defensive systems inherent to the airplane off the 
line. And so, we appreciate the help with that.
    Dr. Snyder. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Johnson, wrap it up.
    Mr. Johnson. Thank you, Mr. Chairman.
    Thank you, ladies and gentlemen, for serving your country. 
Thank you for bringing the young airmen and women on the back 
row. They serve as an example to our youth. And I can guarantee 
them and you that there are many young people in Georgia's 4th 
district who want to be just like you. Thank you.
    And I appreciate the fact that the freedom of operation for 
our naval and land forces around the world is guaranteed by our 
air superiority. And that is something that is certainly easier 
to maintain and prudent to maintain as opposed to having to 
play catch-up at some point.
    And I certainly wouldn't take it for granted that that 
would not occur if we don't continue to move forward with our 
procurement, particularly in the tactical fighter area. And so, 
wishing to associate myself with the questions and comments of 
Congressman Gingrey, I would like to ask these questions.
    During the Department of Defense posture hearing, Secretary 
Gates indicated that he was concerned with acquiring or 
procuring additional F-22 Raptors, but he was concerned that 
procuring these F-22 Raptors now would equate to less F-35 
Joint Strike Fighters later.
    And, General Moseley, I fully support both the F-22 and the 
F-35. And I understand that you have some fighter jet time in 
twin engine Mach 2.5 F-15 Eagles. Can you explain to the 
committee why the F-22 and not the F-35 was designed from the 
get-go to replace the F-15 A through Ds? And then please 
explain why the F-35 is simply not capable of doing all of the 
high-altitude, high-Mach things that Air Force air dominance 
fighters must do.
    General Moseley. Sir, if you will allow me first for a 
request. All of those folks in your district that would like to 
be like these folks behind me--if you will give us their names, 
we will contact them.
    Mr. Johnson. Well, I will tell you we had our service 
academy nominations.
    General Moseley. We welcome that.
    Mr. Johnson. We had a robust group of individuals who----
    General Moseley. Yes, sir. Sir, also we are in full support 
of the F-35 program as a partner to the F-22 program. And we 
have in our program 1,765 of those aircraft to be able to 
replace the bulk of our fighter inventory. And so, we are 
looking very hard to marry the capabilities of these two 
airplanes, not as substitutes for each other and not in lieu of 
additional F-35s because we need that number of F-35s also.
    Sir, I will tell you the F-22 is designed to operate at 
high altitude and higher g, at higher speeds to be able to 
deliver the ordnance. The two airplanes are compatible just 
like the F-16 and the F-15 are today. The F-35 is going to be a 
great airplane.
    In fact, our first A model comes off the line in June or 
July this year, and we have got about 12 of them, Navy, Air 
Force, and Marine coming down the line now to be able to fly 
those. But they are designed for roughly two different 
environments. One is a striking airplane with inherent self-
defense capability. And one is an inherent air superiority 
airplane with inherent striking capability. That is why they 
marry with each other so well.
    And the characteristics of the two airplanes are ideal 
matches. So, sir, our desire is to be able to field both sets 
of these aircraft in the numbers that we need. And that is why 
we are grateful for the 2009 budget and for the Secretary of 
Defense (SECDEF) to keep the line open on the F-22. And the 
numbers will work out.
    Mr. Johnson. Certainly, concerned about advance procurement 
monies for the F-22. And have you, either, General Moseley or 
Secretary Wynne, have you ever offered up F-35 development or 
procurement funds to use for buying more F-22A?
    Secretary Wynne. No, sir.
    General Moseley. No, sir. And we need to field that 
airplane on time as well. That is the backfill and the 
insurance policy against having to spend billions of dollars on 
service life extension of older aircraft.
    Mr. Johnson. Well, certainly, I can appreciate that. And 
let me close by saying that we have heard today that we are 
dramatically short of the number of F-22s needed for meeting 
the Air Force's requirement. Roughly, we have about half of 
what we need. And as widespread procurement of the joint strike 
fighter is not expected until at least 2013, I think we need to 
bridge the gap by procuring additional F-22s. Thank you.
    The Chairman. Thank you. I wish we had time for a second 
round. I thank Secretary Wynne, Secretary Moseley for your 
testimony, for your straightforwardness. And a special thanks, 
not just those that are seated behind you, but to all that you 
represent. We are very proud of them. And thank you again.
    Secretary Wynne. Thank you, sir.
    General Moseley. Thank you, Mr. Chairman.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           February 27, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5253.001
    
    [GRAPHIC] [TIFF OMITTED] T5253.002
    
    [GRAPHIC] [TIFF OMITTED] T5253.003
    
    [GRAPHIC] [TIFF OMITTED] T5253.004
    
    [GRAPHIC] [TIFF OMITTED] T5253.005
    
    [GRAPHIC] [TIFF OMITTED] T5253.006
    
    [GRAPHIC] [TIFF OMITTED] T5253.007
    
    [GRAPHIC] [TIFF OMITTED] T5253.008
    
    [GRAPHIC] [TIFF OMITTED] T5253.009
    
    [GRAPHIC] [TIFF OMITTED] T5253.010
    
    [GRAPHIC] [TIFF OMITTED] T5253.011
    
    [GRAPHIC] [TIFF OMITTED] T5253.012
    
    [GRAPHIC] [TIFF OMITTED] T5253.013
    
    [GRAPHIC] [TIFF OMITTED] T5253.014
    
    [GRAPHIC] [TIFF OMITTED] T5253.015
    
    [GRAPHIC] [TIFF OMITTED] T5253.016
    
    [GRAPHIC] [TIFF OMITTED] T5253.017
    
    [GRAPHIC] [TIFF OMITTED] T5253.018
    
    [GRAPHIC] [TIFF OMITTED] T5253.019
    
    [GRAPHIC] [TIFF OMITTED] T5253.020
    
    [GRAPHIC] [TIFF OMITTED] T5253.021
    
    [GRAPHIC] [TIFF OMITTED] T5253.022
    
    [GRAPHIC] [TIFF OMITTED] T5253.023
    
    [GRAPHIC] [TIFF OMITTED] T5253.024
    
    [GRAPHIC] [TIFF OMITTED] T5253.025
    
    [GRAPHIC] [TIFF OMITTED] T5253.026
    
    [GRAPHIC] [TIFF OMITTED] T5253.027
    
    [GRAPHIC] [TIFF OMITTED] T5253.028
    
    [GRAPHIC] [TIFF OMITTED] T5253.029
    
    [GRAPHIC] [TIFF OMITTED] T5253.030
    
    [GRAPHIC] [TIFF OMITTED] T5253.031
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 27, 2008

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. HAYES

    Mr. Hayes. As you are aware, last Friday, the DoD Inspector General 
announced plans to investigate issues raised by a Program on Government 
Oversight (POGO) report citing inadequate documentation of changes to 
the Combat Search and Rescue helicopter program's Key Program 
Parameters (KPPs). In detail, why was the decision made to perform this 
audit?
    Secretary Wynne and General Moseley. Since this is an on-going DoD 
Inspector General audit, it is inappropriate for the Air Force to 
comment at this time.
    Mr. Hayes. For the first major AF acquisition since the troubles 
with the tanker acquisition scandal, Combat Search and Rescue (CSAR) 
was intended to showcase and represent a reformed AF acquisition 
process. Why were basics like the proper documentation of KPP changes 
not being handled correctly?
    Secretary Wynne and General Moseley. Under the Joint Capabilities 
Integration Development System (JCIDS), ``JROC Interest'' documents are 
draft and subject to change until approved by the Joint Requirements 
Oversight Council (JROC). No changes were made to the CSAR-X Capability 
Development Document (CDD) after JROC approval.
    Mr. Hayes. What is the Air Force doing to make sure that companies 
who compete for Air Force-contracts are participating in a fair 
process, and that the American taxpayer is getting the best value for 
their tax dollar?
    Secretary Wynne and General Moseley. The Air Force follows the 
Federal Acquisition Regulations, as supplemented by the DoD and Air 
Force, and ensures that all competitive procurements are conducted with 
integrity, fairness, and transparency to deliver best value products 
and services. Further, the Air Force recently revised our source 
selection policy and procedures to ensure we have an efficient, 
effective, and transparent selection process. The recent revisions 
include standardized policy, guidance, tools, and training for our 
workforce. These policies, procedures and practices ensure the 
taxpayers are getting the best value for their tax dollar. Companies 
that bid on DoD contracts self-certify that they are in compliance with 
US laws and procurement regulations and unless we have evidence to the 
contrary, they are considered compliant.
    Mr. Hayes. Does the AF plan to award the contract before the IG 
investigation is complete? This would be irresponsible--if you do award 
it and the DOD IG finds error, then the AF would have to redo the 
contract completely. If the Air Force waits, they may be able to 
salvage the competition.
    Secretary Wynne and General Moseley. The Air Force will award the 
contract at the completion of the source selection process. The audit 
being conducted by the DOD IG is a separate activity. Should the DoD IG 
audit recommend any changes, the Air Force would consider its 
recommendations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The 2005 Air Force decision to reduce its force 
structure by 40,000 people by all accounts appears to have affected 
readiness. Both of you (Secretary Wynne and Gen. Moseley) have admitted 
that the drawdown had not met expectations. Now, in its Unfunded 
Requirements List, you are seeking to enlarge its ranks. This request 
is after $244 million was requested last year to substantially increase 
officer separations in Fiscal Year 2008. What is frustrating from my 
perspective is that this growth behind the reductions could have been 
forecasted. Last year, when this funding to reduce the size of the 
force could have been directed to other critical national security 
needs, I asked the Air Force the following questions, and I quote: 
``Question: Does the AF plan to put on hold VSP or other force shaping 
programs pending the analysis of the impact of the Army's Grow-the-
Force initiative on AF resource requirements?'' And the answer I 
received was: ``the Air Force does not expect to put any programs on 
hold for FY08. However, future programs will be subject to any changes 
to requirements.'' I also asked the question: "Has force shaping 
created any unintended shortfall in any career field in any year group? 
If so, what are the year groups and shortfall?" And the answer I 
received was: ``Air Force voluntary and involuntary force shaping 
programs are structured to target specific year groups and career 
fields excess to required sustainment levels.''
    With that in mind, what are the year groups and AFSC shortfalls 
that lead you to request additional personnel in your unfunded 
requirements list? Were personnel in these year groups or AFSCs reduced 
in previous force shaping rounds? If these personnel additions are 
critical to readiness to accomplish Air Force missions, why is the 
request to enlarge its ranks in its Unfunded Requirement List, rather 
than being included in the actual budget request?
    Secretary Wynne and General Moseley. Our nation's demand for 
emerging Air Force capabilities drives our request for end strength, 
and is not simply a remediation of the ``year groups or career fields'' 
within previous cuts. The unfunded growth we request is by nature a 
different overall mix of skills, to include some evolving ones, such as 
cyber professionals, Predator and Global Hawk capabilities. Also, as 
the Army end strength grew by 65,000, the Air Force needs a 
commensurate growth to provide essential weather operations and 
Tactical Air Control party capabilities. However, such growth is not 
achievable without additional end strength and funding. There may be 
some limited overlaps in losses experienced through the 40,000 
reduction and the unfunded manpower requirements set forth to achieve 
the 86 combat wing, but difficult tradeoffs were necessary to free up 
resources for modernization in the interim. House Report 110-434, 
Review of Air Force End Strength, dated February 2008, provides more 
insight into these emerging growth areas and the skills required.
    The Air Force's request for additional end strength is included in 
the unfunded list rather than the actual budget request because we do 
not have the top-line obligation authority to recapitalize and grow the 
required force. In late 2005, the Air Force reduced its end strength by 
40,000 Active Duty, Guard, Reserve and civilian Full-time Equivalents 
(FTE) to pay for vital recapitalization and modernization of aircraft, 
space and missile inventories. End strength reduction by 40,000 FTEs 
over a 3-year period was the only viable alternative to preserve 
required investment capital. In order to stay within a constrained 
total obligation authority, we're faced with significant challenges in 
striking a balance between purchasing weapons for tomorrow's Air Force 
to replace an aging fleet, paying for operations and maintenance of 
today's force, and preserving and developing our men and women of the 
total force.
    Mr. Forbes. Declining readiness rates are a function of aging 
aircraft, op tempo and maintenance funding. Would any reduction in 
flying hours be sufficient to stop the fall in aircraft readiness? What 
actions is the Air Force taking to reverse this readiness trend?
    General Moseley. Flying hour reductions of 10% through the FYDP are 
forecasted to provide limited impact on aircraft readiness. The 
decrease in readiness over 17 years of continuous combat can be 
attributed by a period of chronic under-resourcing during the 1990's 
and an aging fleet. Only through significant sustainment investments 
and innovation in the field and in Air Logistics Centers has the Air 
Force been able to `hold the line' on aircraft readiness rates since 
FY00.
    Mr. Forbes. What impact has the groundings of the F-15s had on our 
Air Sovereignty Alert System? And what steps are being taken to ensure 
the National Guard has the equipment its needs to perform this mission?
    General Moseley. The USAF decision to temporarily ground F-15 
aircraft did not impact the North American Aerospace Defense Command 
(NORAD) air sovereignty alert mission. Quick reactions by US Joint 
Forces Command, US Pacific Command and US Northern Command along with 
adjustments instituted by the Air Combat Command and Pacific Air Forces 
mitigated the situation and the entire NORAD mission requirements were 
met during the duration of the F-15 groundings.
    The organizing, training, and equipping of Total Force air forces 
remains not only a legal obligation, but the Air Force strives to 
optimize expenditures across the force to ensure that the best mix of 
resources comes out of the execution of programmed dollars. To that 
end, the USAF has instituted an annual capabilities review and risk 
assessment to meld requirements for several mission areas into an 
integrated program objective memorandum recommendation. We are 
attempting to find ways to accelerate acquisition, production, delivery 
and payment for the advanced fighter airframes, F-22 and F-35, to 
ensure incorporation into the ANG inventories.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. Secretary Wynne, as you know, for more than 40 years B-
52 Stratofortresses have been the backbone of the manned nuclear and 
conventional strategic bomber force and are capable of dropping or 
launching the widest array of weapons in the U.S. inventory. Modern 
technology has enabled the B-52 to be capable in delivering the full 
complement of joint developed weapons (most of which were developed and 
tested at Eglin AFB) and the aircraft will continue into the 21st 
century as an important element of our nation's defense. In addition, 
current engineering analyses show the B-52's life span to extend beyond 
the year 2040. As a testament to her resilience, the B-52 continues to 
serve as a workhorse and has once again proven to be venerable in the 
Global War on Terrorism, as demonstrated in OIF and OEF. However, with 
all this said, the AF has submitted a budget for 2009 that does not 
provide funding or equipment for its fleet of 76 aircraft, contrary to 
the Congressional mandate in the FY08 NDAA. It does, however, provide 
$80.4M for modernization of only 56 of 76 aircraft. Further confusing, 
the AF included $183.1M on its Unfunded Requirements List to comply 
with last years' Congressional mandate. Could you explain your intent 
with putting a higher prioritization for modernization of 56 B-52 
aircraft, while the basic O&M care and feeding requirements for the 
fleet aren't being met within your budget and there is no clear 
indication the Next Generation Bomber is attainable in the near future?
    Secretary Wynne. Thank you for the opportunity to address the issue 
of B-52 funding in the FY09 President's Budget. As you point out, the 
B-52 has performed extremely well in the Global War on Terror and 
continues to be an integral part of our bomber force. However, your Air 
Force has been in the fight for 17 years, and yet over the same 17 
years has seen under-funded modernization.
    Clearly, beyond the global war on terror we must not lose America's 
asymmetric advantage in the strategic forces. When General Moseley and 
I came to our posts we set about a strategy to restructure our Air 
Force, truly develop a lean and efficient Air Force in order to husband 
the resources for investment. We have talked about being under-funded, 
but here have worked to offer a balanced budget prioritized to best 
defend America. And we will continue to do that over the FYDP.
    The FY09 budget submission reflects the Air Force position that a 
fleet of 56 B-52s is sufficient to successfully meet wartime and 
contingency operations with an acceptably low level of assumed risk. 
However, we are committed to restoring the funding, beginning in FY08, 
for a 76 total active inventory in compliance with the FY08 NDAA. The 
FY09 URL request would continue that funding for 76 B-52s, including 
modifications, through FY09. I expect our FY10 budget to provide full 
funding for 76 B-52s across the FYDP.
    This also addresses recommendations from the recent nuclear surety 
Blue Ribbon Review. Soon I will submit the congressionally mandated 
Institute for Defense Analyses Bomber Force Structure Study so we can 
begin the process of drawing the B-52 fleet down to 76. Thank you for 
your support to our improved readiness via retirement and 
recapitalization.
    Mr. Miller. With regard to the Air Force Special Operations Command 
. . . in particular, the AC-130 Gunship, in the GWOT these aircraft are 
being utilized at 3 times their programmed rate. That said, the current 
fleet is on pace to run into major Maintenance issues and may have to 
come off the battlefield for major repairs (especially for the center 
wing box). This will create a ``gap'' of Close Air Support platforms 
for our soldiers on the ground (The Gunship is the premier CAS platform 
in the USAF inventory). Hasn't the C-27 has been vetted as the aircraft 
to make into an AC-27 gunship and will be able to fill the gap and 
increase the AF's Close Air Support Capability? I also see USSOCOM and 
the AF have identified and listed this requirement in their top ten of 
unfunded requests (#2 and #7, respectively). Would you please speak to 
the necessity of this aircraft and how you and SOCOM are working 
together to make this happen sooner rather than later? The need for 
this gunship is now, isn't it?
    General Moseley. A gap in gunship capability already exists and has 
historically been a Limited Supply/High Demand (LS/HD) asset with an 
extreme operational tempo. The legacy fleet is accruing flying hours at 
four times the rate they were originally programmed. In an effort to 
fill the urgent need for additional Special Operations close air 
support (CAS) capability, USSOCOM initiated the AC-XX effort with the 
Air Force in lock step. AC-XX is a USSOCOM/CC priority and the Air 
Force fully supports additional gunship capability. Currently USSOCOM, 
with Air Force assistance, is conducting an Analysis of Alternatives 
(AoA) to determine the best solution to fill the sufficiency gap. Many 
material solutions are being analyzed for mission and cost 
effectiveness, one of which is the C-27. The AoA will be complete in 
early June 2008. Upon completion it will be vetted through USSOCOM and 
Air Force leadership to inform a potential acquisition decision in 
FY10. The AoA will provide a recommendation on a cost effective attack 
modification package and appropriate ``donor'' aircraft. While the C-27 
is yet to be chosen as the ``donor'' platform for AC-XX, the Air Force 
is moving forward to request a congressional new start approval to 
purchase one C-27 in FY08. This aircraft will be used to perform 
Research and Development with the focus on the gunship attack 
modification package. If approved by Congress, the new start effort 
will reduce program risk by performing a major portion of R&D ahead of 
time.
    Mr. Miller. What is your opinion of utilizing the F-22 for 
Operation NOBLE EAGLE Homeland Security missions as proposed by some 
leadership responsible for that mission? Can our current F-15 and F-16 
fleets meet the current threat to US airspace sovereignty?
    General Moseley. The F-22 has already flown Operation NOBLE EAGLE 
missions. Planned modernization programs will ensure F-15s and F-16s 
assigned to the Air Sovereignty Alert mission are fully capable of 
protecting US airspace against current threats for the foreseeable 
future.
    Mr. Miller. AF Special Operations will continue to be integral in 
the GWOT and its certain these aircraft will continue to be in high 
demand for the foreseeable future. The 08 Supplemental has 2 MC-130Js 
requested, the 09 NDAA has 3 aircraft budgeted and there is already a 
request for a fourth aircraft on the unfunded list. But, in light of 
the aging fleet of LD/HD MC-130J aircraft, an increase in demand, and 
the intent of AFSOC/SOCOM leadership to convert as many C-130Js the Air 
Force will dedicate to Special Operations, why aren't all the 
requirements consolidated, increased, and dedicated more clearly to the 
AFSOC mission? Are the AF's ``last tactical mile'' intra-theater 
airlift requirements more critical to need than the aging fleet 
requirements of the LD/HD AF Special Operations MC-130J fleet?
    Secretary Wynne and General Moseley. The Air Force recognizes the 
need to recapitalize its combat delivery tactical airlifters and 
special operations tankers. Both mission areas are critical and fully 
engaged in the Global War on Terror. The FY08 Supplemental requests 
serve to address the stresses on both fleets due to the ongoing GWOT, 
and the FY09 PB request initiated additional recapitalization for aging 
C-130Es and MC-130s. Recently, OSD (AT&L) approved the sole source 
procurement of C-130J aircraft for modification to Special Operations 
configuration. The Air Force will continue to address the 
prioritization of recapitalization within the limits of the Service's 
current fiscal resources.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO

    Mr. LoBiondo. President Bush has said that Operation Noble Eagle, 
which began in the wake of 9/11 to provide for the security of the air 
space of the United States of America and is flown almost exclusively 
by the National Guard (aka Air Sovereignty Alert), is the number one 
defense priority of this nation. More recently, the Commission on the 
National Guard and the Reserves recommended the National Guard and 
Reserves be the backbone of Homeland Defense. Does this budget fully 
fund the Air Sovereignty Alert mission? Will this end the uncertainty 
caused by 90 day budgeting cycles for the ASA mission and the National 
Guardsmen who man that mission? Will the ASA mission ever become part 
of the baseline budget for the Air Force? What procurement steps are 
being taken address the rapidly aging ASA fleet of aircraft in Air 
National Guard?
    Secretary Wynne and General Moseley. The United States Air Force 
remains 100 percent committed to protecting the nation from all threats 
as directed by the President and the Secretary of Defense. This support 
has been provided without reliance on other Services' air assets since 
the inception of this steady state activity following 9/11.
    As part of the USAF Total Force solution to the Air Sovereignty 
Alert (ASA) mission, the Air National Guard (ANG) units tasked to 
participate have also provided 100 per cent commitment to the NORAD 
operations. In FY2006, the ANG flew 1,365 sorties and 4,021 hours 
defending the nation's skies, including the tens of thousands of hours 
Air Guard members spend watching radarscopes, or sitting alert waiting 
for the call, or maintaining alert aircraft and facilities. This 
commitment to defend the United States homeland does not begin and end 
at our national boundaries, but the USAF Total Force solution to the 
Global War on Terrorism (GWOT) guarantees that America is protected 
both within the US and abroad.
    MPA days are resourced and executed throughout the fiscal year. To 
sustain maximum flexibility, the Air Force's Major Commands balance the 
needs of the Combatant Commanders with the requirements on a quarterly 
basis. We continue to search for solutions funding ASA just as we do 
with the full spectrum of missions as we seek to achieve total force 
victory in the GWOT against the asymmetric threat we face as a 
sovereign nation.
    The organizing, training, and equipping of total force air forces 
remains not only a legal obligation, but the Air Force strives to 
optimize expenditures across the force to ensure that the best mix of 
resources comes out of the execution of programmed dollars. To that 
end, the USAF has instituted an annual capabilities review and risk 
assessment to meld requirements for several mission areas into an 
integrated program objective memorandum recommendation. We are 
attempting to find ways to accelerate acquisition, production, delivery 
and payment for the advanced fighter airframes, F-22 and F-35, for 
incorporation into the ANG inventories.
    Mr. LoBiondo. With respect to the ``Golden Eagles''--the 177 F-15s 
which the USAF plans to upgrade and operate until 2025--Why is this 
unfunded in the USAF budget? Given the high priority of the ASA mission 
and the extremely low tolerance for mistakes in the environment in 
which the mission will be executed, ie. over major metropolitan areas, 
why is the current radar planned for the Golden Eagles the APG-163 and 
not the more advanced AESA (Active Electronically Scanned Array) radar 
system?
    Secretary Wynne and General Moseley. All of the upgrades originally 
planned for the 177 ``Golden Eagles'' are fully funded in the FY09 
President's Budget. The APG-63v(3) is an AESA radar that has previously 
been funded through Congressional adds for installation on the F-15C. 
The Air Force recognizes the large improvement in capability provided 
by this radar and has programmed funding beginning in FY10 that will 
continue the program with the goal of equipping all 177 Golden Eagles 
with an AESA. The unfunded request we have submitted to Congress for 24 
APG-63v(3) radars would accelerate that program to begin in FY09 and 
allow us to reach our goal faster than we could otherwise afford. We 
thank you for your support of this vital initiative to improve the 
homeland defense capabilities of our primary air superiority weapon 
system.
    Mr. LoBiondo. Has the Air Force made any decisions, preliminary or 
final, on the so-called Four Corners plan? Will the plan remain a 
fifth-generation fighter plan or will it also incorporate the Golden 
Eagles?
    Secretary Wynne and General Moseley. The FY09 President's Budget 
funds 183 total F-22s which is not enough to implement the Four Corners 
plan. The strategic basing of fifth-generation fighters at various 
CONUS locations, supporting both the homeland defense mission as well 
as rotational and emerging worldwide wartime commitments requires 
procurement of additional F-22s beyond the level currently programmed. 
Although the proposed Four Corners plan only involves the F-22 at this 
time, this plan is not the only pillar of our strategy to recapitalize 
legacy aircraft that are performing the Air Sovereignty mission. The 
Air Force is committed to fulfill both homeland and overseas combatant 
commander requirements. The Air Force considers our entire inventory of 
fighters, including Golden Eagles, when assessing future strategic 
basing options and recapitalization of existing inventory.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE

    Mr. Kline. This question concerns the 148th Fighter Wing stationed 
in Duluth, Minnesota. This unit was recently awarded the Air Force 
Outstanding Unit Award (AFOUA) for exceptional meritorious service 
during the period November 1, 2005 to October 31, 2007. In addition, 
the unit was the winner of the Air Force Association 2006 Outstanding 
Air National Guard Flying Unit award.The 148th Fighter Wing was the 
largest contributing ANG F-16C+ fighter unit during 2007 Air 
Expeditionary Force (AEF) rotations to Iraq. Due to a lack of readiness 
of a follow-on unit, the 148th Fighter Wing volunteered for a last 
minute extension to its planned rotation in Iraq from February 28 to 
April 16, 2007. On November 9, 2007, the 148th Fighter Wing was called 
again to stand alert in Hawaii (over Thanksgiving, Christmas, and New 
Years) due to the structural issues that grounded the F-15 fleet. The 
148th Fighter Wing was again extended in its alert mission at this 
location until January 29, 2008. On February 4, 2008, the 148th Fighter 
Wing was called again, for a third time in 9 months, and is currently 
standing alert in Alaska due to the structural issues that grounded the 
F-15 fleet. Upon completion of this current alert mission, the 148th 
Fighter Wing will return to Duluth to prepare for an upcoming AEF 
deployment early this fall. Upon completion of this next AEF rotation 
in January of 2009, 148th personnel will have deployed personnel and 
aircraft in support of 5 different Combat Commanders in numerous 
locations throughout the world. They will continue to be one of the 
most heavily utilized units in the Air Force. The 148th Fighter Wing 
currently flies F-16C+ Block 25 aircraft, the oldest Combat Coded 
aircraft flown by the Air Force. The 148th Fighter Wing will soon be 
the only Active Duty, Air National Guard or Air Force Reserve Wing 
flying these older aircraft. This will severely limit the 148th Fighter 
Wing's ability to partner with other Air National Guard F-16C+ units 
and to support Air Force Air Expeditionary Force (AEF) rotations. In 
1996, 2002, and 2007, scheduled/proposed conversions to Block 30 
aircraft were overturned or diverted to other locations. Most recently 
(2007), Block 30 aircraft were sent from Korea to Alaska to serve as 
aggressor aircraft, rather than to Minnesota where they could have been 
utilized to support the Global War on Terrorism. Do you intend to 
upgrade the airframe used by the 148th Fighter Wing to a Block 50/52 
version of the F-16C? If so, when do you anticipate this conversion 
taking place. If not, please explain the rationale behind this decision 
especially in light of the following reliance on the 148th Fighter Wing 
during the past 12 months.
    General Moseley. The proud airmen of the 148th Fighter Wing without 
question continue to make outstanding contributions to our national 
defense. While having among the oldest of our combat fleet of F-16s, 
the Block 25s are highly capable and the Minnesota Air National Guard 
has answered the call with honor and distinction. Accordingly, the Air 
Force will continue to upgrade the assigned aircraft of 148th Fighter 
Wing as an integral part of the comprehensive force structure plan. The 
148 FW is currently not programmed to transition to Block 50/52 F-16 
due to the availability and distribution of these aircraft. The 148 FW 
is currently programmed to transition to Block 40 F-16s in FY13, though 
this plan is reviewed annually and could feasibly change. We will look 
for every opportunity to equip the 148 FW with the best aircraft 
available in a manner that optimizes the combat capability across the 
US Air Force.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY DR. GINGREY

    Dr. Gingrey. Secretary Wynne, some have implied that because F-22As 
have not flown in OIF or OEF they are not all that useful, and so we 
should stop buying them. I understand that ICBM's haven't been used in 
OIF or OEF either. Nor have the Navy's Ballistic Missile Subs been used 
in OIF or OEF. Mr. Secretary, have you heard anyone in the Department 
suggest we should eliminate funding for ICBMs or Navy subs or any other 
programs simply because they haven't been used in OIF or OEF?
    Secretary Wynne. To your question, no. As to the F-22, it has not 
been deployed to OIF/OEF because it has not been requested by COCOM 
commanders for operations in Iraq or Afghanistan. The F-22's mission is 
to gain air dominance and, due to Air Force operations over the skies 
of Iraq for the last 18 years, Air Dominance has been achieved allowing 
the joint forces to operate freely.
    Dr. Gingrey. Both of you stated at the Air Force Posture Hearing 
that you were pleased that an F-22 supplemental request would keep the 
F-22 line open upon completion of the current multi-year contract. The 
Lockheed/Boeing/Pratt production line is jointly building about 2 F-
22As every month. That means that line shut-down, which IS going to 
commence this fall under the current scenario, would be staved off for 
2 months. Further, even if we build 4 additional Raptors, by the time 
we get through another budget cycle, that line--and its long lead 
suppliers--could be without activity for nearly a year, with no 
assurance future orders will be placed. The math simply DOES NOT add 
up--both of you stated that the Air Force requirement for F-22s is 381. 
Four additional Raptors in a supplemental request, which will increase 
the size of the Air Force's fleet to 187, is a long way from 381. How 
exactly does a supplemental request of 4 Raptors hedge against the 
possibility that we will need more F-22s in the future? And does it 
provide the necessary assurances to long-lead suppliers to continue 
with their end of the bargain?
    Secretary Wynne and General Moseley. The four F-22s added in the 
FY09 supplemental are to replace legacy fighter losses and do not 
significantly extend production line activities, as production line 
shutdown will still begin in early FY09. These aircraft are to be added 
to the end of the current production line at the same rate of delivery, 
thereby only keeping the production line open an additional 2-3 months. 
This additional limited production run will have minimal impact on 
supplier confidence. Without indications for future F-22 work, the 
long-lead suppliers will produce the parts for the 4 aircraft following 
approval of the supplemental request and subsequent contract award. 
Once deliveries are complete, F-22 activities will cease without 
additional orders.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. BOYDA

    Mrs. Boyda. Secretary Wynne, in light of the Chairman's question 
regarding force levels, the ``In Lieu Of '' mission becomes even more 
important. Would the increase in personnel referenced on your Unfunded 
Priorities List be as great if the Air Force did not have to perform 
``In Lieu Of '' missions?
    Secretary Wynne. Yes, requirements on our unfunded priorities list 
would remain the same even if Air Force participation in ``In Lieu Of 
'' (ILO) missions decreased. The requested growth is associated with 
new and/or emerging missions and is not targeted towards easing stress 
on Air Force functions performing In-Lieu-Of missions. Instead, growth 
is focused on operating, maintaining, and supporting an 86 Combat Wing 
envisioned in the last QDR.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. The USAF has invested funding in incremental 
improvements to the ACES ejection seat, the common ejection seat on 
almost all Air Force combat aircraft. Can you describe the safety 
benefits and any other additional advantages of an enhanced ACES 5 
ejection seat? Are there cost savings associated with using a modular 
improved ejection seat in the F-35 and in retrofitting the B-2 and F-22 
aircraft? I understand that the FY11 POM includes funding to retrofit 
the ACES modular ejection seat into the B-2, however, there is no 
current money programmed to qualify and test the seat. Would the USAF 
support additional funds to qualify and test the seat this year? In 
1997 the Department of Commerce issued a study titled ``National 
Security Assessment of the Emergency Aircraft Ejection Seat Sector'' 
which warned about the impact of forfeiting this critical technology to 
foreign concerns. Does the USAF have concerns about the lack of a 
future domestic industrial base for ejection seat capability?
    Secretary Wynne and General Moseley. Part 1--If funds were made 
available for the ACES Modular Seat development program, the Air Force 
could execute $10.0M to complete qualification and testing of the ACES 
Modular Seat configuration for the B-2. Completion of this ACES Modular 
Seat qualification and testing requires research, development, test, 
and evaluation (RDT&E) funds.
    Part 2--The Air Force is concerned, in general, with industrial 
base issues. As a result, an Air Force Industrial Base Council (AFIBC) 
has recently been established to address industrial base issues. The 
AFIBC is intended to provide greater corporate visibility into the 
industrial base, as it has become increasingly difficult to identify 
and understand the risks imparted by a rapidly evolving industrial 
base. The Air Force, through the AFIBC, has initiated an assessment of 
the ejection seat industrial base--this effort is on-going. The results 
of this assessment will ultimately be presented to and evaluated by an 
Executive Level Steering Group; which will subsequently make 
recommendations to the AFIBC on any potential courses of action.

                                  <all>

</pre></body></html>
